<html>
<title> - THE DEPARTMENT OF HOMELAND SECURITY'S SCIENCE AND TECHNOLOGY DIRECTORATE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
     THE DEPARTMENT OF HOMELAND SECURITY'S SCIENCE AND TECHNOLOGY 
                              DIRECTORATE 

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING
                        THREATS, CYBERSECURITY,
                       AND SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 3, 2010

                               __________

                           Serial No. 111-54

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

57-456 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

                 Yvette D. Clarke, New York, Chairwoman
Loretta Sanchez, California          Daniel E. Lungren, California
Ben Ray Lujan, New Mexico            Paul C. Broun, Georgia
William L. Owens, New York           Steve Austria, Ohio
Mary Jo Kilroy, Ohio                 Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex      Officio)
    Officio)
                      Jacob Olcott, Staff Director
       Dr. Chris Beck, Senior Advisor for Science and Technology
                          Ryan Caldwell, Clerk
               Coley O'Brien, Minority Subcommittee Lead





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Yvette D. Clark, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Emerging 
  Threats, Cybersecurity, and Science and Technology.............     1
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Ranking Member, Subcommittee 
  on Emerging Threats, Cybersecurity, and Science and Technology.     2

                               Witnesses

Dr. Tara O'Toole, Under Secretary for Science and Technology, 
  Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7

                                Appendix

Questions From Chairwoman Yvette D. Clarke for Dr. Tara O'Toole, 
  Under Secretary for Science and Technology, Department of 
  Homeland Security..............................................    25


     THE DEPARTMENT OF HOMELAND SECURITY'S SCIENCE AND TECHNOLOGY 
                              DIRECTORATE

                              ----------                              


                        Wednesday, March 3, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
      Subcommittee on Emerging Threats, Cybersecurity, and 
                                    Science and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:43 p.m., in 
Room 311, Cannon House Office Building, Hon. Yvette D. Clarke 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Clarke, Lujan, Owens, and Lungren.
    Ms. Clarke [presiding]. Good afternoon. The subcommittee is 
meeting today to receive testimony from Under Secretary Tara 
O'Toole on the Department of Homeland Security's Science and 
Technology Directorate.
    Dr. O'Toole, we are pleased to have you here today.
    The S&T Directorate is a critical element of the 
Department's efforts to secure the homeland, and I know many of 
us are eager to hear about your plans and priorities for S&T.
    Spurred by the findings of several reports, the committee 
initiated a comprehensive review of the organization and 
activities of the Science and Technology Directorate. Our 
purpose was to identify areas within the directorate that 
necessitate additional oversight or modifications to 
legislative authorities.
    In doing so, we have received--excuse me, we have reviewed 
the Homeland Security Act and the Department's use of the 
authorities of Congress has vested in it. We have also received 
insight and information from DHS leadership, stakeholders, the 
R&D community, business leaders, and independent analysts.
    It is clear that improvements have been made since the 
directorate was first stood up. Many of us share the opinion of 
the National Academy of Public Administration, which stated in 
its comprehensive review of S&T in 2009 that ``S&T has made 
strides towards becoming a mature and productive research and 
development organization, particularly during the last 3 
years.''
    S&T research activities have, indeed, created products that 
are used today by DHS, the first responder community, and 
infrastructure owners and operators to better secure our 
homeland. These products are as varied as the Department's 
mission and include everything from secure USB devices and 
chemical detection systems to reports, training modules, and 
standards. We commend S&T for these activities.
    I think we would all agree, however, that despite positive 
steps forward, much work remains. NAPA concluded in their 2009 
report that S&T's ability to fulfill its mission is ``limited 
by the lack of a cohesive strategy, the insularity that defines 
its culture, and the lack of mechanisms necessary to assess its 
performance in a systematic way.''
    This deeply concerns us and squares with the committee's 
own review. Our analysis suggests that DHS does not have a 
clear risk-based methodology to determine what projects to 
fund, how much to fund, and how to evaluate a project's 
effectiveness or usefulness.
    We found that, in spite of investing in hundreds of 
research projects, most technologies are never transitioned 
into acquisition programs. This makes it difficult to evaluate 
the directorate's success in mitigating security 
vulnerabilities.
    Without metrics, it becomes difficult for Congress to 
justify increases in programmatic funding. That is why I 
believe this is a crucial time for S&T. S&T will never achieve 
success unless research rules and metrics are more fully 
established.
    Under Secretary O'Toole, this is your responsibility, and 
we will judge you based on your achievements in these areas. We 
look forward to hearing about your efforts to address these 
issues. We all stand ready to support you and look forward to 
working with you in the upcoming years.
    It is now my pleasure to recognize the Ranking Member, Mr. 
Lungren, for an opening statement.
    Mr. Lungren. Thank you very much, Madam Chairwoman.
    Welcome, Under Secretary O'Toole. I appreciate the fact 
that you took some time out to meet with me in my office some 
time ago, where we could talk about the challenges for your 
directorate.
    I would just say that this is my sixth year on this 
committee. It is the sixth year of this existence of this as a 
standing committee. During that period of time, we have grown 
along with the Department of Homeland Security.
    I was thinking the other day, it is sort of like watching a 
child go through elementary school. You go through the various 
developmental steps, going from one grade to the other, and you 
have greater expectations as you proceed forward, as we do of 
ourselves and as we do of the Department.
    I do think there has been progress in the overall 
Department. I do believe there is greater coordination of the 
disparate elements that came together to make up the 
Department.
    I do believe that your directorate has a particular 
challenge, and it is an on-going challenge, and I have even 
heard more about it since the terrorist attempt on Christmas 
day, a lot of ideas of people who believe that their companies 
or their particular ideas should have merit.
    They want to make sure that the small entrepreneurial ideas 
are looked at, as well as those that come out of the large 
shops, the already existing ones, and I know that is a 
challenge for those of us who serve on these committees and 
serve in the Congress. I know it has got to be a tremendous 
challenge for you.
    That is one of the things I hope that you would address 
today. How do we ensure that we don't lose out on the potential 
ideas that may be out there that may be out of the box? How do 
we ensure that those who are not the big boys have an 
opportunity to present themselves to you, your directorate, and 
to the Department through you or in other ways?
    How do we accelerate the--how do we accelerate the time 
from an original idea to a testable product to actually having 
it engaged by contract? The bad guys are out there. They are 
attempting to try and deal with us in a variety of different 
ways.
    One of the great ways that we have been able to keep ahead 
of the bad guys, whether they are nation-states or in this case 
transnational terrorist organizations, is that we have the 
ingenuity of the American spirit and we have a flexibility or 
an agility that marks this country.
    I am always reminded when I have read Stephen Ambrose's 
various pieces of work of literature about World War II, that 
he defined the greatness of our forces with the idea of 
ingenuity, creativity, thinking out of the box, and the fact 
that somehow our system of decision-making allowed those ideas 
to percolate up. He would contrast it with some of our enemy 
nations and their inability to have that flexibility.
    So I would hope that in some way we can capture that spirit 
of encouraging ingenuity and somehow working through what is 
inevitable. You have to have a bureaucracy. You have got to 
make decisions. You have got to make sure that the Government 
is spending its money wisely.
    But having said that, how do we ensure that in that pursuit 
we also ensure that your doors are open for that thought nobody 
else has that could be crucial to the decisions that we have to 
make in the future? I know that is a big challenge for you. I 
am all ears to find out how you are approaching this.
    I want to thank you for your prior service to this Nation 
and applaud you for taking this assignment and look forward to 
hearing your words today.
    Ms. Clarke. Thank you, Ranking Member Lungren, for your 
opening statement.
    To other Members of the subcommittee, you are reminded that 
under the committee rules, opening statements may be submitted 
for the record.
    I now welcome our witness, Under Secretary Tara O'Toole. 
Dr. O'Toole was confirmed as Under Secretary for Science and 
Technology in 2009. She is an expert on biological weapons and 
terrorism. Prior to her appointment, she led the University of 
Pittsburgh's Center for Biosecurity. She was the director of 
the Johns Hopkins University Center for Civilian Biodefense 
Strategies and on the faculty at the School of Hygiene and 
Public Health.
    From 1993 to 1997, Dr. O'Toole served as assistant 
secretary of energy for Environment, Safety and Health. Dr. 
O'Toole earned her B.A. from Vassar College and her M.D. from 
George Washington University.
    We are pleased to welcome you to this subcommittee hearing. 
We appreciate your efforts to respond to the committee's 
questions in preparation for our authorization bill. You may 
now proceed with your opening statement.
    Welcome, once again.

  STATEMENT OF TARA O'TOOLE, UNDER SECRETARY FOR SCIENCE AND 
          TECHNOLOGY, DEPARTMENT OF HOMELAND SECURITY

    Dr. O'Toole. Sorry. I ask that my written statement be 
entered into the record, and I will just give some brief 
opening remarks.
    Ms. Clarke. Without objection.
    Dr. O'Toole. Thank you. I have been under secretary for a 
little less than 4 months now. I believe there is a great deal 
of value that is going on in the directorate and look forward 
to increasing that flow of products and knowledge with your 
help.
    We have been engaged in a strategic planning process that I 
intend to be on-going throughout my tenure, and I want to thank 
you and your staffs and the other Members for your advice and 
your concern and your conversations with respect to our 
strategic planning effort.
    I view this hearing as yet another input into the process 
of building an increasingly productive relationship between the 
directorate and the committee.
    I thought I would comment today on some of the top 
priorities that I have identified so far for the directorate. 
First of all, as I tried to illustrate in my written statement, 
the directorate's work is tremendously diverse, reflecting the 
huge scope of interest in missions embraced by the Department 
as a whole, and the even more expansive needs of what we now 
call the homeland security enterprise, which includes not just 
DHS and not just Federal agencies, but all the State and local 
first responders and entities that would be engaged and are 
engaged every day in protecting the country from terrorism and 
who would be engaged, should we have to respond to an attack or 
a National disaster.
    The first job of the S&T Directorate, of course, is to 
develop technologies to meet the operational needs of the DHS 
components and including first responders. There are three 
principal ways I have identified thus far wherein this process 
of technology development might be improved, particularly in 
the near term.
    First, I want to mature and strengthen the integrated 
product teams, which are the mechanism my predecessor invented 
for linking the needs of the components, our primary customers, 
to technology development projects and priorities.
    I think this process is key, but I think it can be made 
much more consistent across the integrated project teams and 
more analytically rigorous, getting to your comments, 
Congressman, about the need for a risk-based approach to what 
we fund.
    I also would like to create a space in the Department for 
thinking more strategically across the Department about science 
and technology, so not just component by component, but across 
the Department, what are we doing in identity management, for 
example? What are we doing in sensor fusion, for example? A lot 
of our work has similarities in its technological base.
    Next, I am very committed to using the directorate's role 
in the DHS acquisition process to bolster the quality and the 
efficiency of technology development across the Department. We 
have just finalized an acquisition management directive in DHS 
reflecting the continuing maturation and evolution of the 
Department as a whole, and I think this is going to be a very 
powerful tool in governing DHS acquisition programs and making 
sure that, first of all, we know what we want and we get what 
we need, without getting to the end of a long development 
process and discovering that what we have doesn't work and the 
operational settings for which it was intended or is much more 
expensive than we had anticipated.
    The keys to successful technology acquisition are, first of 
all, establishing very comprehensive and detailed operational 
requirements. DHS does not have a long history of doing this, 
and I think S&T's expertise can help the components in being 
more successful.
    Second, S&T has a statutory responsibility for carrying out 
independent oversight of developmental and operational testing 
in homeland security. I would like to emphasize and expand this 
role of the directorate.
    But technology is only one of the important products that 
S&T puts forth to the homeland security enterprise. We also 
produce knowledge. As you mentioned, Madam Chairwoman, this 
comes sometimes in the form of a deepened scientific 
understanding. It is sometimes in the form of standards, 
sometimes in protocols.
    I believe that first responders in particular benefit from 
this kind of product, particularly in this constrained budget 
environment when very few firefighters or police chiefs are 
going to have a lot of money to spend on technology, and yet 
they can benefit immediately from, for example, a better way 
for dealing with white powder incidents. So I am going to put a 
real emphasis on standards and operation protocol developments.
    Next, university programs. We now have 12 university 
centers of excellence, which are engaging over 200 U.S. 
colleges and universities in multidisciplinary research and 
priority DHS mission areas.
    These centers of excellence are essential to keeping DHS in 
touch with cutting-edge research. They are creating expertise 
in the academic community so that they are familiar with DHS 
needs, and they are also creating the future workforce not just 
for the scientific infrastructure of America, but for the 
Federal Government. I regard that as critically important.
    This program suffered a cut in this year's budget. Our 
pressing near-term priorities and the constrained budget 
environment forced hard choices between investments in near-
term technology development versus longer-term investments in 
developing basic research.
    But I want to assure you that we are very committed to 
these COEs, which are already showing their mettle in providing 
valuable services. Last year, these centers of excellence 
received $56 million in requests for services outside of their 
S&T funding. These are other components of DHS going to the 
COEs and saying, ``We would like you to do this, that, and the 
other thing for us.'' That is very, very encouraging.
    In the next few months, S&T is going to be establishing 
BOAs, basic ordering agreements, which will give the 
universities mechanisms for very quickly and easily contracting 
with DHS components and other Federal agencies so that we can 
improve the traffic between these very vital centers of 
expertise and the Federal community.
    We also tried hard to avoid harming the minority-serving 
institutions disproportionately in this tough budget year. I am 
very happy to report that the minority-serving institution 
programs in S&T increased three-fold, from $2 million to $6 
million, in the years from fiscal year 2007 to 2009 and will be 
held steady in fiscal year 2011, in spite of our overall budget 
decrease.
    Finally, I want to emphasize the importance of the private 
sector and S&T's work. As you both pointed out, we have to 
leverage the private sector's investment in R&D against the 
needs of DHS.
    The private sector makes enormous investments in this 
regard. Successfully taking advantage of that requires two 
things. First of all, DHS has to successfully, succinctly, and 
efficiently communicate its needs to the private sector. 
Second, businesses have to have access to efficient means of 
proposing potential technology solutions to DHS for 
consideration and evaluation.
    There are several ways we now approach these tasks. First 
of all, we do regular outreach to the business community 
through notices and meetings around the country, including 
small meetings, such as Chairman Thompson held recently in 
Kansas, to establish our needs and describe our processes.
    We annually publish a document that is on the Web of high-
priority technology needs in the Department, and we have a 1-
page pamphlet explaining how you can connect to us, and it is 
quite straightforward.
    Probably the most important tool we have is the long-range, 
broad-area announcement, which allows anyone to submit a very 
short paper, 2 or 3 pages, proposing their idea. It doesn't 
require a big investment or a lot of time, like a traditional 
RFP. We have gotten a lot of return from this.
    Since fiscal year 2009, we have gotten 148 white papers; 42 
have been selected for contract negotiations. There are on-
going negotiations with about 2 dozen companies for a total of 
$62 million. So we are definitely interacting with these small 
agile businesses who are the small innovators.
    I mean, we have data showing that the small innovators are 
much more likely to come up with a new idea than the big 
corporations. You are completely correct about that. We are 
trying to reach out to them.
    We have also made special efforts to reach small 
businesses, both through our SBIR program and other means I 
would be happy to talk to you about.
    Just in conclusion, as I said, I am convinced that DHS S&T 
is of vital importance to the DHS mission and to the country. I 
look forward to working with you in making it even better, more 
powerful, and more effective. Thank you, Madam Chairwoman. I 
would be happy to take questions.
    [The statement of Dr. O'Toole follows:]
                   Prepared Statement of Tara O'Toole
                             March 3, 2010
                              introduction
    Good afternoon, Chairwoman Clark, Congressman Lungren, and 
distinguished Members of the subcommittee. I am honored to appear 
before you today on behalf of the Department of Homeland Security (DHS) 
to report on my plans for strengthening the Science and Technology 
Directorate's (S&T) efforts to advance the scientific and analytical 
foundations and deliver the robust technological solutions needed to 
protect the Nation from natural disasters and terrorist threats.
    Since I was confirmed as under secretary for S&T in November, I 
have been continuously impressed with the breadth and reach of S&T's 
activities, which reflect the tremendous scope and variety of the 
Department's missions. S&T serves as the main source of scientific and 
technological research and development for DHS operating components and 
has a special obligation to provide knowledge and technologies needed 
by the Nation's first responders. The Directorate is also charged with 
assessing and testing homeland security vulnerabilities and possible 
threats as well as with directing, funding, conducting, and 
establishing priorities for National research, development, testing, 
and evaluation of technologies related to the DHS missions.
    S&T must address a dynamic spectrum of threats and vulnerabilities 
across the homeland security enterprise and deliver cost-effective 
operational and technological solutions to meet a wide array of 
operational requirements. The S&T mission also requires a robust, 
rigorous, and disciplined research and development effort to expand our 
understanding of homeland security challenges, create advanced 
technologies and develop new ways of thinking about problems and 
potential solutions.
    All of this work should be considered in the context of the newly 
completed Quadrennial Homeland Security Review (QHSR). The QHSR 
articulates the homeland security vision and frames the key mission 
areas encompassed by the DHS components and the greater homeland 
security enterprise that includes State, local, and Tribal governments 
as well as the private sector, universities, and individuals. There are 
five homeland security missions. These are:
    (1) Preventing Terrorism and Enhancing Security;
    (2) Securing and Managing Our Borders;
    (3) Enforcing and Administering Our Immigration Laws;
    (4) Safeguarding and Securing Cyberspace;
    (5) Ensuring Resilience to Disasters.
                              dhs missions
    S&T carries out many types of activities and services in pursuit of 
each of the Department's missions. The Directorate's most obvious work 
involves developing new technologies and shaping existing technology 
solutions to fit the operational needs of the enterprise.
    S&T is also in the business of creating new knowledge, through 
sponsorship of basic research, university programs, sustained analyses 
of technical problems and the construction of research roadmaps, which 
identify critical information gaps. A particularly important S&T role 
is the oversight of technology testing and evaluation (T&E). T&E is an 
essential element of a disciplined acquisition process, and I expect 
our role to grow in importance. The Directorate also frequently serves 
as technical consultant to DHS operational components. Further, S&T 
staff work to stay abreast of and to leverage the extensive R&D work 
being undertaken by other Government agencies, universities, and 
private sector organizations, large and small, in the United States and 
overseas.
    The following are a few examples of the different kinds of work S&T 
is doing to support key DHS missions.
Mission 1: Preventing Terrorism and Enhancing Security
            Aviation Security
  <bullet> S&T is collaborating with the Transportation Security 
        Administration (TSA) to improve advanced imaging technology 
        (AIT) to reliably detect passenger-borne threats. A current 
        focus of this long-standing work is on developing software 
        algorithms that could improve contraband detection and reduce 
        both false alarm rates and privacy concerns. Basic standards 
        for this technology have been developed by S&T, and we will 
        leverage this investment to ensure future systems perform as 
        required.
  <bullet> The Transportation Security Laboratory (TSL) in Atlantic 
        City is expanding its traditional focus on aviation security to 
        address explosive threats to mass transportation. Research 
        there will produce emerging technologies for screening people 
        and identifying improvised explosive devices in mass transit 
        environments.
  <bullet> TSA is testing software produced at the University Centers 
        of Excellence (COE) to randomize airport searches and 
        checkpoints in order to thwart terrorists' surveillance and 
        attacks.
            Protect Critical Infrastructure
  <bullet> S&T is developing extremely strong and resilient materials, 
        design procedures, and construction methods that help prevent 
        building collapse due to explosion. Three Small Business 
        Innovative Research (SBIR) awards are also aimed at developing 
        such novel materials. These include nano-enabled spray-on 
        foams; three-dimensional woven textiles; and materials with 
        internal geometric structure, known as microtrusses.
Mission 2: Securing and Managing Our Borders
            Detecting Semi-Submersibles
  <bullet> Small, self-propelled, semi-submersible boats are carrying 
        illegal drugs and other illicit cargo from South America 
        destined for United States through the transit zone in the 
        Eastern Pacific, an issue that poses a serious emerging threat 
        to homeland security. S&T leads a team of 25 different 
        organizations conducting international field experiments 
        designed to assess current capability and identify shortfalls 
        for detecting, tracking, and interdicting these vessels.
            Detecting and Monitoring Tunnels
  <bullet> Clandestine cross-border and public infrastructure drainage 
        tunnels are being used as conduits for illegal immigration and 
        smuggling activities. S&T is developing and assessing sensors 
        and surveillance technologies to detect clandestine tunnels and 
        monitor human activity in our subterranean infrastructure.
Mission 3: Enforcing and Administering Immigration Laws
            Multiple Biometrics
  <bullet> S&T is working to address DHS components' growing 
        requirements for biometric data. Over the next 5 years, DHS's 
        biometrics databases (maintained by US-VISIT, U.S. Customs 
        Border Protection, and others) will grow from systems with data 
        relating to 100 million persons to 500 million persons. S&T is 
        partnering with industry and academia to develop the capability 
        to collect two or more types of biometric data per individual, 
        including fingerprint, face image, and iris recognition. 
        Combining multiple biometric data points will expedite 
        legitimate entry into the United States, enable DHS to search 
        and share biometric data with other agencies, and help to 
        prevent spoof attempts against any one biometric. S&T has 
        funded standards for biometric data formats, quality of images, 
        and exchange of data that are helping US-VISIT work with other 
        U.S. Government and law enforcement agencies.
            Kinship Identification
  <bullet> To help U.S. Customs and Immigration Services (USCIS) verify 
        citizenship eligibility, S&T is developing a rapid and 
        inexpensive DNA-based kinship test. This development will help 
        USCIS process immigration requests faster and reduce fraudulent 
        applications.
Mission 4: Safeguarding and Securing Cyberspace
            Inherently Secure Systems
  <bullet> In cybersecurity, most existing solutions involve 
        ``patching'' an unsecure system. S&T is working to make future 
        cyber systems inherently more secure. Our recently published 
        ``Roadmap for Cybersecurity Research'' sets a path forward to 
        meet this goal. This work supports the current White House 
        Comprehensive National Cybersecurity Initiative (CNCI) and was 
        drafted to be especially useful for private industry, enabling 
        companies to proactively develop solutions to identified 
        problems.
            Domain Name Security
  <bullet> S&T continues to partner with the DHS National Protection 
        and Programs Directorate, the Office of Management and Budget, 
        the White House Office of Science and Technology Policy, the 
        National Institute of Standards and Technology, and the global 
        internet community to deploy Domain Name System Security 
        Extensions (DNSSEC) onto Government and private sector 
        networks. Deployment of this protocol will ensure that when an 
        internet user thinks, for example, they're going to mybank.com, 
        they don't end up at a facsimile site at hackers.net.
Mission 5: Ensuring Resilience to Disasters
            Recovery From Bioterror Attacks
  <bullet> S&T is participating in and leading several initiatives that 
        address post-attack environmental event characterization 
        sampling strategies, decision frameworks, and associated 
        concepts of operation. The goal is to formulate a systems 
        approach to restoration focused on reducing time and cost while 
        ensuring the safety of urban areas after bioattacks.
            Vaccines Against Foot and Mouth Disease
  <bullet> Plum Island Animal Disease Center is developing vaccines and 
        medicines for high-priority Foreign Animal Disease pathogens 
        that will differentiate infected animals from those who are 
        vaccinated. One of our COEs, run by Texas A&M University and 
        Kansas State University, is conducting related basic research 
        on vaccines and disease detection.
            Earthquake Warning Systems
  <bullet> S&T is working with the Department of Energy (DOE) National 
        Labs and private industry to develop seismic warning models 
        that integrate overhead sensor data into emergency management 
        tools to better predict and plan for earthquakes.
Unifying and Maturing DHS
    In addition to these five explicit mission areas, the QHSR 
identifies a sixth focus area designed to unify and mature DHS as an 
organization. The following are examples of S&T activities related to 
this sixth mission.
            Consolidation of DHS Research Activities--Domestic Nuclear 
                    Detection Office
    As part of unifying and maturing the Homeland Security Enterprise, 
the fiscal year 2011 budget proposes to transfer the $109 million 
radiological and nuclear transformational and applied research 
portfolio from the Domestic Nuclear Detection Office (DNDO) into S&T. 
Consolidating all DHS fundamental research in one component allows 
efficiencies and will help eliminate gaps, better enable cross-cutting 
research and more easily leverage economies of scale.
    During the integration, S&T and DNDO will conduct in-depth reviews 
of on-going work to identify the strongest programs for advancement. 
This will help ensure our focus on the most promising and highest 
priority research areas. The new Radiological and Nuclear Division in 
S&T will identify research and develop technologies, processes, and 
procedures to dramatically improve the performance of nuclear detection 
components and systems; significantly reduce the operational burden of 
the radiological/nuclear detection mission; and improve the Nation's 
capability to respond to and recover from radiological/nuclear attacks.
            Building the National Bio and Agro-Defense Facility (NBAF)
    The safety and security of our food supplies are critical to 
National defense; another aspect of maturing and building S&T's 
capabilities will be the continuation of our efforts to build the 
National Bio and Agro-Defense Facility (NBAF). NBAF will be the 
Nation's first integrated agricultural, zoonotic disease, and public 
health research, development, testing, and evaluation facility. NBAF 
will be able to address threats posed by high-consequence zoonotic 
diseases and foreign animal diseases, such as Foot and Mouth Disease. 
NBAF will also have a bio-safety level 4 capability, allowing S&T to 
perform more extensive research on a wider array of some of the most 
dangerous diseases than our current laboratories allow.
    DHS is committed to building a state-of-the-art facility that 
incorporates all necessary safeguards, both facility-based and 
procedural, to ensure its safe and secure operation. DHS is completing 
a comprehensive site-specific risk assessment to develop mitigation 
strategies and establish the protocols necessary for safe operation. 
S&T has also contracted with the National Academy of Sciences to 
perform an independent review of our risk assessment and mitigation 
plans. NBAF construction will not begin until that review is complete 
and shared with Congress.
            University Centers of Excellence
    S&T will continue to invest in and mature our University Programs 
and COEs. These efforts harness and leverage the cutting edge research 
of our universities and create engines of innovation. DHS internships, 
fellowships, and scholarship programs, such as the Scientific 
Leadership Awards, help ensure that the necessary Science, Technology, 
Engineering and Math graduates are available to help lead the Homeland 
Security Enterprise into the future.
    In order to ensure the development of a science and technology 
workforce that reflects the diversity of the American people, we 
continue to grow our outreach to Minority Serving Institutions (MSI). 
During the past 2 years, we've sharply increased the number of new MSI 
Scientific Leadership Awards while modifying the program to better 
reflect the composition of the MSI community by adding categories for 
institutions focused on Associate's and Bachelor's degree programs. S&T 
has increased funding by increasing the number of Scientific Leadership 
Awards and by naming four MSIs to serve as co-lead institutions for 
COEs.
    COE collaborations have made substantial progress and continue to 
broaden their impact and demonstrate their value in a variety of ways. 
S&T investment in COEs has attracted the attention of outside funders 
and resulted in 178 requests for support from other Government agencies 
in fiscal year 2009. These requests, and the 126 additional requests 
from DHS components, resulted in more than $56 million dollars of 
additional funding in fiscal year 2009, more than doubling the original 
S&T investment. This ability to leverage the initial investment into 
outside funding demonstrates the value of their work.
                    s&t directorate: moving forward
    S&T has begun a strategic planning process that I intend to be 
inclusive and on-going. I appreciate the observations and suggestions 
that we have received from Congressional Members and staff, and we will 
continue to solicit input on how S&T might better serve the Department, 
the broader Homeland Security Enterprise, and the Nation. The strategic 
planning process is not finished, but some strategic priorities are 
already clear.
Capstone Integrated Product Team (IPT) Process
    My predecessor performed an important service in establishing the 
Capstone Integrated Product Teams (IPTs), which created an explicit way 
to link the technology needs of DHS' operational components and first 
responders to S&T's technology development efforts. I intend to build 
on the customer relationship that S&T has with the operating components 
and first responders, largely enabled by the Capstone IPT process, and 
to evolve that relationship into an increasingly collaborative 
partnership. I would also like to embed more rigor and consistency in 
the processes used by the IPTs to identify capability gaps and 
technology development priorities.
First Responder Engagement
    S&T recognizes the importance of the first responder community. 
They are the Federal, State, local, Tribal, and territorial emergency 
professionals who prevent, defend against, and mitigate the 
consequences of terrorist attacks and natural disasters. First 
responders are a widely diverse group with vastly different needs, 
resources, and requirements. For example, despite their shared core 
mission, firefighters in New York City face very different challenges 
on a day-to-day basis than their counterparts in Muscatine, Iowa. The 
diverse range of environments in which responders across the country 
operate creates several challenges to supporting this essential 
component of the homeland security enterprise.
    One way to address this challenge is to expand S&T's engagement 
with first responders beyond traditional technology development and 
place more focus on the delivery of information products for use across 
a broader spectrum of the first responder community. While every first 
responder may not have the budget to buy emerging technology, nearly 
all can gain access to the internet to download test reports and other 
important information on currently available commercial equipment. S&T 
has established the System Assessment and Validation for Emergency 
Responder (SAVER) Program within its Test & Evaluation and Standards 
Division to conduct objective assessments of commercial responder 
equipment and to provide those results along with other relevant 
equipment information to the emergency response community. The SAVER 
Program provides information that enables decision-makers and 
responders to better select, procure, use, and maintain emergency 
responder equipment.
    S&T also seeks to leverage its testing and standards efforts to 
vertically integrate products for responders by developing and posting 
on-line standard operating procedures for incidents, identifying 
equipment that has been tested and would work well for those 
procedures, and posting training and certification plans to enable the 
responder community to more easily integrate it into operational use. 
While these efforts may not generate the same level of enthusiasm as a 
new technology would, they can be applied across a much broader swath 
of the community and could help standardize the response to certain 
incidents. In the end, this approach potentially could have a bigger 
operational impact than efforts to develop technologies with more 
limited use.
Acquisition Support
    DHS recently implemented Acquisition Directive 102-01, which 
institutionalizes a disciplined process for DHS technology 
acquisitions. The directive mandates detailed specification of 
operational requirements and the conduct of rigorous developmental and 
operational testing. Implementation of this directive is an important 
milestone in the maturation of DHS and should promote a more 
transparent and cost-effective approach to technology development and 
deployment across the Department.
    A key role of S&T at this point in the Department's evolution is to 
oversee testing and evaluation of complex technologies that the DHS 
components are seeking to acquire. DHS intends to leverage the private 
sector's own research investments in commercial technology against the 
mission needs of the Department, but we must exercise appropriate 
diligence to determine if the technologies work as anticipated in 
realistic operational settings. Secretary Napolitano has instructed me 
to work closely with the DHS Under Secretary for Management and DHS 
components to ensure that the new Acquisition Directive is implemented 
in a manner that encourages a more mature approach to technology 
investments.
Test and Evaluation
    Section 302 of the Homeland Security Act of 2002 charges S&T with 
the responsibility for ``coordinating and integrating all research, 
development, demonstration, testing, and evaluation activities of the 
Department.'' To carry out these and other test and evaluation (T&E)-
related legislative mandates, the Directorate established the Test and 
Evaluation and Standards Division (TSD) in 2006 and created the 
position of Director of Operational Test & Evaluation in 2008.
    TSD develops and implements robust Department-wide T&E policies and 
procedures. Working with the DHS under secretary for management, TSD 
approves Test and Evaluation Master Plans that describe the necessary 
Developmental Test and Evaluation and Operational Test and Evaluation 
tasks that must be conducted in order to determine system technical 
performance and operational effectiveness based upon vetted Operational 
Requirements Documents. The Department's new Acquisition Directive 
provides the management framework for a robust and comprehensive T&E 
program.
Leveraging Work of Interagency and International Partners
    In many cases, the challenges faced by the homeland security 
enterprise are shared by others, and DHS can leverage the work of our 
interagency, international, and commercial partners to provide the best 
value for our investments. By leveraging others' science and technology 
capabilities, S&T can ensure the best products and information are 
available sooner and at a reduced cost to the U.S. Government.
    DHS and the Department of Defense (DOD) in particular share many 
technical challenges, such as detecting and finding adversaries, 
locating improvised explosive devices, and protecting cyber networks. 
DOD has a robust research and development infrastructure to address 
these challenges, and S&T has developed a strong formal partnership 
with them through the Capability Development Working Group (CDWG). The 
CDWG is chaired by the DHS S&T under secretary, the DHS under secretary 
for management, and the DOD under secretary for acquisition, technology 
& logistics. The partnership: Ensures the best use of resources and 
avoids duplication of effort; explores capability development topics of 
mutual interest and decides on implementation paths; promotes future 
cooperation; and supports and informs policy, planning, and decision-
making.
    A focus on aviation security has led S&T to further enhance its 
partnerships with international groups as well as DOE. Following the 
failed Dec. 25 bombing attempt, we established the DHS-DOE Aviation 
Security Enhancement Partnership to develop technical solutions key to 
aviation security problems. This under secretary-level governance 
mechanism will manage a strategy to further extend and leverage this 
relationship, with a focus on improving aviation security. This 
strategy will:
  <bullet> deliver key advanced aviation security technologies and 
        knowledge;
  <bullet> conduct analyses to assess possible vulnerabilities and 
        threats and support/inform technology requirements, policy, 
        planning, and decision-making activities; and
  <bullet> review the use of existing aviation security technologies 
        and screening procedures, and the impact of new or improved 
        technologies using a systems analysis approach to illuminate 
        gaps, opportunities, and cost-effective investments.
Working with the Private Sector and Small Business
    In 2008, S&T officially established the Commercialization Office to 
develop and execute programs and processes that identify, evaluate, and 
leverage the products and capabilities of the commercial sector. 
Through the System Efficacy through Commercialization, Utilization, 
Relevance and Evaluation (SECURE<SUP>TM</SUP>) Program, an innovative 
public-private partnership, DHS harnesses the skills, expertise, and 
resources of industry to develop products and services that align to 
DHS operational requirements with minimal investment of taxpayer 
dollars. The program identifies operational requirements as well as the 
commercial market potential available to businesses if they develop a 
product that fulfills those requirements. The program provides an 
entree, especially for small businesses, into the marketplace of 
Government equipment and attempts to leverage the internal research and 
development dollars of industry to solve DHS requirements.
    As the 2009 report on The Small Business Economy points out, small 
businesses are ``more likely to develop emerging technologies'' than 
large ones. It is critical for S&T to leverage these innovators for the 
good of the homeland security enterprise. So far, S&T and DNDO have 
made 372 Phase I and 122 Phase II awards, totaling $139 million, to 
small businesses through the SBIR program. Through fiscal year 2009, we 
have received 2,300 applications from all 50 States. In order to make 
sure we are getting the best and most innovative ideas the country has 
to offer, it is critical that we continue our efforts to reach new 
small and rural businesses.
                               conclusion
    I appreciate this opportunity to appear before you today and report 
on S&T activities relevant to the scope of this subcommittee and 
outline my plans for aligning the Directorate to the Department's 
priorities as articulated in the QHSR.
    I am pleased to have the opportunity to strategically guide the 
Directorate as it advances its efforts to respond to the current threat 
environment and enable technological capabilities to better protect the 
American people. Thank you for your time. I look forward to your 
questions.

    Ms. Clarke. Thank you, Dr. O'Toole.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I now recognize myself--excuse me--for 5 minutes.
    Dr. O'Toole, I am glad that you sort-of outlined for us in 
your testimony what some of your priorities are for the 
directorate. I would like to get a sense of, you know, how will 
you measure S&T's success in establishing and really hardening 
these priorities?
    Dr. O'Toole. You know, I talked to a lot of people who run 
R&D organizations before I was confirmed about how to measure 
success, and they all were extremely consistent. They all said 
it is really, really hard.
    They have different ways of going about it. For example, 
DARPA, which some would regard as very successful, regards a 
project manager as unsuccessful if more than 40 percent of his 
projects actually result in acquired technology, because in 
DARPA, that is seen as not being risk-taking enough.
    I think that would be too stringent a level for S&T, except 
for our innovation division, where that kind of acquisition 
rate is probably appropriate, where we try to do leap-ahead 
technologies.
    Another answer I got from a very large R&D corporation--or 
very large technology corporation who does a lot of R&D is that 
you have to prove that you are incrementally improving the 
business or the services that your corporation does everyday. 
In DHS-speak, that would be, are we providing value to the 
components? Are we helping them do their work better, more 
safely, more efficiently, faster, et cetera?
    I agree with you. I think one of the things we need to 
build into our IPTs is our metrics for measuring that more 
effective.
    The other measures that I heard are: Do you have any money 
placed against the big bets? Are you managing it in a 
reasonable way? This usually involves a project management 
process that very carefully ensures that you are watching the 
development of a project in which you have invested money. If 
it starts looking like it is going to succeed, you keep going, 
but you also have built-in exit ramps so that if you have 
invested in something that sounded like a good idea, but isn't 
working out, you get out of it and you go on to something else.
    So the short answer to your question is, we need several 
different kinds of metrics to measure different things. One 
size is not going to fit all. I think they have to be tailored 
to the particular objective we have in mind.
    Ms. Clarke. I recognize that, you know, you are all of 4 
months into this, but I think one of the challenges with the 
directorate has been being able to try to really get that 
tangible--those exit ramps and all the other pieces that you 
have described.
    Is this something that you intend to embed as part of the 
culture?
    Dr. O'Toole. Yes.
    Ms. Clarke. Is there a particular preference that you have 
for the type of metrics that you would like to embed as a 
practice at the directorate?
    Dr. O'Toole. It is probably about 60 days too early to 
answer your question definitively. Some version of all three of 
those types of metrics I mentioned, I think, are needed, but I 
will tell you this. We will certainly have more solid metrics 
for measuring project management.
    Ms. Clarke. Fair enough. Fair enough. In January, you 
provided timely responses to the committee's questions about 
the R&D process at DHS, and we want to thank you for that.
    Some of the responses confirmed problems that S&T has in 
selecting research projects. In a response to a question about 
Capstone IPT process, you stated that S&T is working to further 
mature the process by improving the consistency and analytical 
rigor of the decision-making process within each IPT.
    Can you provide the committee with more specifics? How, for 
instance, are you using risk assessments to prioritize 
projects?
    Dr. O'Toole. The IPTs differ, for example, in the level of 
seniority of the representatives from the components who 
attend. In some cases, I think the enthusiasm of the 
representatives can drive the conversation. The IPTs always 
consist of more than one component. They are co-chaired by two 
components.
    But they should--the decisions about priorities, I think, 
should be driven more by an objective assessment of risk and 
need and likelihood of success and less by the enthusiasm, if 
you will, of the people present at the table. So a more kind-of 
objective approach to what we prioritize out of the individual 
IPT is needed.
    Then we need a more disciplined, rigorous way at the 
technology oversight group of arraying all of the IPT choices 
across the Department and figuring out what it is that we 
should fund on what kind of priority. We are already working on 
both of those levels.
    Ms. Clarke. Who establishes the risk assessment?
    Dr. O'Toole. I think that risk assessment has got to be a 
collective process of S&T and the operators and the leadership 
of the Department. I recognized the appetite for having some 
kind of clear algorithm of what our top risks are and the next 
level, et cetera, et cetera. That is really hard to do in a 
sensible way that allows one to execute projects.
    So, for example, you may have a near-term opportunity to 
solve three problems at once very quickly. Even though that 
isn't your highest risk, well, that might be a really good S&T 
investment.
    So S&T, good S&T is a combination of addressing risks in a 
sensible way and taking advantage of opportunities. 
Opportunities are often serendipitous. A lot of this demands 
judgment. We are not going to eliminate judgment. It is never 
going to be totally objective. But the process ought to be very 
transparent.
    Ms. Clarke. Thank you. I am over time at this stage, so now 
I would like to recognize the Ranking Member of the 
subcommittee, the gentleman from California, Mr. Lungren. Thank 
you.
    Mr. Lungren. Thank you very much, Madam Chairwoman, and 
thank you, Dr. O'Toole, for being here.
    I noted in your resume that you practiced internal medicine 
for a period of time. My dad was an internist. I am just trying 
to think what it would be like to have you--to be a patient of 
yours. I think you would be rather straightforward, and you 
would probably tell me that I should change my diet.
    [Laughter.]
    I think I would walk out of there thinking, ``I had better 
do what she says.''
    Thank you for what you are doing here. I do not want to add 
to bureaucracy, certainly. But I note that TSA and CBP are not 
necessarily required to go through your directorate when they 
purchase technology, but given that that is the case, how do 
you ensure that your directorate's expertise is leveraged?
    Is that sort of relationship-building with the people that 
are there? Or is there something we need to do? Or is it 
impossible without creating unnecessary bureaucracy so that, 
you know, elements like TSA and CBP would be hamstrung in terms 
of making timely purchases?
    Dr. O'Toole. Relationship-building is very important 
because a lot of these technology development acquisition 
processes go on for years, and they--it really is a team sport. 
Okay, that is the other thing to remember about technology 
development. It takes years.
    Short-term S&T is 3 to 5 years, until you get a prototype, 
from idea to prototype, okay? It was 20 years from the first 
time we ran a locomotive in London until we actually had a 
railroad, okay? So good ideas don't necessarily translate right 
away into product. That is one of the reasons it is so 
difficult to measure the effectiveness of R&D. Couldn't get a 
railroad until we had wrought iron, which we didn't have when 
we conceived of the idea.
    But I am extremely interested in the acquisition process 
because of the question you raised. That is a very powerful 
lever for influencing the acquisition decisions of the 
components. With this new directive, S&T is now mandated to be 
part of both the operational requirements which get laid down 
at the front end of the process and the testing and evaluation 
that happens at the end of the process before we decide to 
acquire a technology and spend really big bucks on it.
    So that is critical. That is a very strong signal of a big 
maturation step in DHS.
    The other question--should we be more tightly linked to the 
components?--I think can be answered in two ways. One answer 
would be, yes, okay, there ought to be more crosstalk between 
S&T and the components when we are in a highly technical area 
or we are talking about a big complex acquisition.
    The nature of that conversation deserves some careful 
thought. I think the acquisition process will force that 
conversation in a disciplined way that will be quite 
constructive.
    But the other issue is that we are going to have to build 
over time a lot more technical expertise, scientific and 
technical expertise, into the components themselves. I was very 
struck the last time in Government, which was 16 years ago, by 
how technical the business of Government has become. I am even 
more struck by that observation today.
    Everything we do is very complicated, is embedded in 
technology or in scientific findings, and so on and so forth. I 
am sure you have your own list. We have to build a much more 
technically fluent Federal workforce than we now have.
    DHS is in a good position to do this, because we are going 
to have to be hiring a lot of young people. That is one of the 
reasons I am so committed to these internships and fellowships, 
which I think is a great way of bringing people into Government 
who normally wouldn't think of it as a career.
    Mr. Lungren. Let me ask another question. When I was out in 
California a couple weeks ago, I got an e-mail message that the 
advanced--I think it is called spectroscopic----
    Dr. O'Toole. Portal.
    Mr. Lungren [continuing]. Portal monitor that we had been 
waiting results on for some time had not passed the test, that 
that was something that was supposed to be a follow-on to what 
we have been using for some time at our major ports. Is there 
any lesson that we learned out of that?
    Dr. O'Toole. Yes.
    Mr. Lungren. Or is that success that we took the time to do 
this and found out that it didn't do what we thought it was 
going to do? Or is there some way for us to speed that process 
up? Or is that just the nature of the animal, No. 1?
    No. 2, I understand some responsibilities have been 
transferred from DNDO to you in the budget. What does that 
mean, in terms of future reviews, studies, et cetera?
    Dr. O'Toole. To take your latter question first, the R&D 
portion of the Domestic Nuclear Detection Office is going to be 
transferred to S&T in fiscal year 2011. That is $109 million or 
so. I think that is a good thing. It gives us the full suite 
now in S&T of R&D, including rad-nuke, and it allows us to do 
robust, multidisciplinary R&D across the Department.
    I would regard the recent decision on ASP, as we call it--
--
    Mr. Lungren. That is easier for me to say.
    Ms. O'Toole [continuing]. A victory. Yes. As a victory. It 
is, first of all, going to be used, but in secondary screening. 
We determined with considerable precision and objectivity that 
it is effective, it does what we want it to do, and it is cost-
effective in that operational setting.
    It is not a cost-effective solution for primary screening. 
We shouldn't put every cargo container that comes into a port 
through ASP right away. If in the initial screening looks 
funny, then it goes to ASP, and that is a good way to do it. 
That is smart screening.
    So it is a success in that sense. It took a long time. It 
takes a long time. We had to build this technology. We had to 
test it at ports, which had very high throughput. It is very 
difficult to actually interrupt the operations of ports without 
being very intrusive, i.e., expensive.
    But I think the full story of ASP in the last 2 years is 
actually a story of doing it right.
    Ms. Clarke. Thank you, Mr. Lungren.
    I now recognize the gentleman from New Mexico, Mr. Lujan, 
for 5 minutes.
    Mr. Lujan. Madam Chairwoman, thank you very much.
    Dr. O'Toole, thank you for being here, as well. The 
enabling legislation for DHS makes specific reference to the 
ability of the Science and Technology division to tap into the 
expertise resident in DOE and NSC laboratories. Dr. O'Toole, I 
would be interested in your perspective on the interactions 
between your office and the NNSA facilities and whether you 
would like this to be a true partnership rather than a short-
term fee-for-service arrangement.
    Dr. O'Toole. Thank you for the question. I think the 
relationship is robust. A significant portion of our budget is 
invested in the laboratories. We just established a new 
aviation security partnership with the labs to look at three 
different aspects of aviation security that I think are going 
to be very important to the Nation and are quite long-term, at 
least in terms of what it is going to take to bring them to 
true fruition.
    I certainly don't have complaints with the laboratories so 
far. I think--I know them well from past experiences. I have 
had a lot of conversations already with folks from the labs.
    I think we could work on the same problem we talked about 
in the private sector. How do we know what they have got and we 
need and vice versa? That is kind of an on-going challenge, and 
we just have to keep oiling that machine.
    But I think the--as I said, I think the relationship is 
quite robust.
    Mr. Lujan. Well, I appreciate that very much, Dr. O'Toole. 
As we look to the National labs and to other entities that we 
have made sizable investments in, I certainly hope that we 
engage more with DOE specifically and NNSA facilities to help 
solve some of these problems and to look at their modeling, 
their simulation, computing capabilities to be able to 
understand the systems-wide problems that we are trying to work 
on to engage in these technologies, sometimes where it is for 
rain imaging, and then we find out that there is another 
application that TSA can employ.
    Following up on some similar questions, regarding the 
aviation security enhancement program between DHS and DOE, how 
will this program affect S&T's ability to partner with NNSA 
laboratories and transition new technologies to deploy to TSA, 
as opposed to bogging things down? Will this allow us to move 
forward in a way that these technologies will help get into 
market sooner, rather than later?
    Dr. O'Toole. Yes.
    Mr. Lujan. Very good. On the topic of domestic nuclear 
detection with DNDO, I understand a number of changes that are 
being proposed that we just spoke about, as well, that the R&D 
elements will move into your directorate, as this takes place, 
is DHS ready to take full advantage of the laboratory? Are they 
willing to take full advantage of the expertise that we have at 
some of the NSA facilities to help meet those needs?
    Dr. O'Toole. I believe so, Congressman. I don't see any 
obstacles. We are going to do a program review of the DNDO 
portfolio, so we understand what is there and we keep the best 
of it, and if we need to change things around, we do that.
    We haven't undertaken that yet, so I have a general 
knowledge of what is in DNDO. I have talked to the current 
acting director at some length, and I have read all the paper, 
but that might be a question best asked, again, in another 60 
days.
    Mr. Lujan. I appreciate that very much, Dr. O'Toole.
    Madam Chairwoman, you know, as we bring some of these 
questions forward and we identify some of these problems, you 
can see the passion that I have, but the belief that our 
scientists, our physicists, our researchers, and our National 
laboratory system, investments that we have made, places and 
people that have solved great problems, that the more that we 
engage with them and that we allow for these synergies to take 
place between DHS, DOE, DOD, to be able to bring these to 
application and truly be able to harness the ability and 
streamline the process associated with commercialization of 
some of these technologies to allow them to solve these 
problems, wherever they may be across the country, not only 
will we be creating jobs and allowing for the domestic 
manufacturing to be built again, but we are going to be able to 
arm a lot of people with safer environments to be able to make 
a difference.
    That is why I emphasize this with Dr. O'Toole. I am anxious 
to see where we go from here. I am very pleased with your 
responses, Dr. O'Toole, as far as the commitment to be able to 
work in a very close way with our DOE and NSA facilities.
    Thank you very much, Madam Chairwoman. I yield back my 
time.
    Ms. Clarke. Thank you, Mr. Lujan. Your insight into the use 
and application of our National labs as it relates to homeland 
security, I think, is a very keen observation that we need to 
emphasize more and more each day.
    We do have expertise resident in these labs around our 
Nation, of which you are keenly aware and very engaged with 
already, Dr. O'Toole. I guess it is sort of connecting the dots 
and some of the information-sharing that we are always hearing 
about that is always the challenge, but we look forward to your 
continued advocacy and see how we can, you know, make this come 
to fruition in a much more tangible way, ways that I think we 
will see that next generation of individuals going into our 
labs and sharing that responsibility with our S&T Directorate 
to bring out those products that we need.
    Having said that, I would like to acknowledge the gentleman 
from New York, one of our newest Members, Mr. Owens----
    Mr. Owens. Thank you, Madam Chairwoman.
    Ms. Clarke [continuing]. For 5 minutes. Sure.
    Mr. Owens. I would like to go back to something that you 
mentioned in your testimony, and that is, how are we going to 
make available the procurement process to small businesses, 
innovative folks, and at the same time protect the Department 
from the point of view of the small businesses' ability to 
perform once engaged?
    Dr. O'Toole. That is an important question. There are some 
success stories here, but what you are highlighting is a fairly 
common conundrum, where you have a small business that has a 
terrifically innovative idea that looks like it may solve a 
problem that we have, but they do not have the resources, 
whether it be the accounting systems or the capital to build a 
big production system, to actually bring that idea even to 
prototype.
    What we have done in the past--and what I would like to do 
more of--is play matchmaker and pair those small businesses 
with larger concerns who can help shepherd the product through 
at least a prototype so we can get a good look at it and test 
it.
    We just did this recently with the third-generation 
BioWatch system, an environmental sensor for biological weapons 
that is not yet deployed. It is just going into testing now. We 
had a very innovative small business who had some great ideas, 
and we paired them with--I think it was Northrop Grumman.
    They ended up being one of the two candidates being 
selected for further testing. But that often happens, that the 
small businesses can get so far, and then they need help. That 
is the other reason for the long-range BAA. They often just 
don't have the capital of the time of the people to develop a 
full-blown request for proposal response.
    So with these brief white papers, we are trying to give 
them an opportunity to get their ideas in front of us.
    Mr. Owens. Thank you. How well is that known, the process, 
the marrying process that you talked about, in the small-
business community?
    Dr. O'Toole. I don't know the answer to that. But I will 
tell you what, it is a good question, and we will put it into 
the pamphlet that describes how to work with S&T.
    Mr. Owens. I think that is very important.
    Dr. O'Toole. Yes, you are right.
    Mr. Owens. I have another question.
    Dr. O'Toole. If I could just mention, since you brought it 
up and you are thinking of authorizing--of reauthorizing S&T, 
we use the other transition authority a lot to get these non-
traditional companies who don't usually contract with the 
Government into the game.
    It is--you have been very generous in reauthorizing it 
every year. Having that as permanent authority would be 
actually helpful, because it is the way you engage these small 
businesses, oftentimes.
    Mr. Owens. Again, thank you. Again, I think that it is very 
important to engage small businesses in this process.
    Another question that is somewhat related, but maybe not 
fully. Are you working on a management directive detailing how 
basic and applied homeland security research is identified, 
prioritized, funded, and evaluated by your directorate?
    Dr. O'Toole. No.
    Mr. Owens. Is that something that the Secretary may be 
working on?
    Dr. O'Toole. We are having conversations with the 
Secretary's office about how to structure little S and little T 
in DHS more effectively, i.e., including what the components 
do, but I haven't at least been in conversations about a 
particular directive----
    Mr. Owens. Okay, thank you.
    Ms. O'Toole [continuing]. That would codify that.
    Mr. Owens. Where are we at in the process of testing the 
next generation of AIT equipment? When do you think it will be 
deployed in the Nation's airports?
    Dr. O'Toole. It depends on what you mean by next 
generation. The way TSA has decided to proceed is that it is 
going to put into the field the current generation of imaging 
machines, which we all agree are imperfect but better than 
nothing, and then we are going to try and incrementally improve 
those machines, for example, by adding algorithms for automatic 
targeting, which we are working on now.
    The checkpoint--the whole checkpoint, not just one machine, 
but the whole experience from the moment you walk into the 
airport until you get on the airplane, is currently, the focus 
of one of the lab projects that I was just referring to, we are 
doing a systems analysis of that whole experience to figure 
out, where is the low-hanging fruit? What might we do right 
away? What are the big problems which, if solved, change the 
world, okay?
    So there are things going on in S&T and in TSA on all of 
those different levels. We are certainly looking at entirely 
new technology approaches to imaging. One of the projects in 
Los Alamos, for example, uses low-energy magnetic resonance 
technology instead of the current X-rays or millimeter wave 
technologies.
    That may be dynamite. It is looking pretty good in the lab. 
Sometimes things that happen in the lab aren't so good in the 
messy operational environments of airports. These are very low-
energy waves, these MRI things that we are using. What happens 
when you put it around all the metal at checkpoint, we will 
have to wait and see.
    Mr. Owens. Thank you very much for your analytical answers 
and responses and for your good work. Thanks very much.
    Mr. Lujan. Mr. Owens, would you yield briefly on that?
    Mr. Owens. I think my time is expired, so I have no problem 
yielding.
    Mr. Lujan. Madam Chairwoman, just to add a quick thought?
    Ms. Clarke. Sure. Go ahead, Mr. Lujan.
    Mr. Lujan. I just want to mention that that technology is 
being tested in an airport, as well.
    Dr. O'Toole. That is correct----
    Mr. Lujan. So we have seen it in application and in use. 
Thank you, Madam Chairwoman.
    Ms. Clarke. There are still a couple of additional 
questions that my colleagues have, so we want to go around for 
another round of questioning with you, but I wanted to get back 
to a question raised by Mr. Owens about management director, 
because in response to us, it was stated that you are currently 
formalizing the Capstone IPT process with roles and 
responsibilities through a DHS management directive.
    Is that still in play?
    Dr. O'Toole. Yes. Sorry. Yes, I misunderstood.
    Ms. Clarke. Okay. All right. Let me ask you then about the 
NAPA findings. We intend on incorporating many of the NAPA 
findings in our authorization bill. One of the NAPA's findings 
suggest that S&T establish a system to monitor and account for 
homeland security research, milestones, and create a formal 
process for collecting feedback from customers and end users on 
the effectiveness of the technology or service delivered by 
S&T.
    I know many of us were surprised to hear that these 
processes are not already in place, but what specifically are 
you doing to implement this recommendation?
    Dr. O'Toole. You know, I read the NAPA report very 
carefully, and I spent a lot of time with the principal authors 
and found it a very valuable document. I think on that, they 
were mistaken.
    There is no single system that gets feedback from 
customers, but there is a lot of feedback. It may be that we 
need to codify that and integrate it and make it a little bit 
more quantitative, but, again, it is a really different thing 
to ask a first responder if they found a protocol to be useful 
or accurate--I am not sure which question would be 
appropriate--versus asking a component whether they found our 
testing and evaluation to be helpful or overly tough versus 
asking whether a deployed technology, once it is handed off to 
the components, actually met the need as expected.
    There are many different questions that have to be posed. 
This one-size-fits-all metric system that NAPA was after does 
not, I believe, exist, alas. I mean, life would be much easier 
if it did.
    But I do think we are going to have to set up a variety of 
feedback systems to figure out how we are doing. It is 
basically the other side of your metrics question, Madam 
Chairwoman. There is no easy fix. We have to do a number of 
things.
    Ms. Clarke. It is not a one-size-fits-all.
    Dr. O'Toole. No. You know, In-Q-Tel, for example, which has 
been in this business for a few years trying to help the 
intelligence community, particularly with information 
technologies, is run by some very sophisticated people out of 
the private sector who have a lot of venture capital 
experience.
    I asked them. I said, well, what are your metrics? They 
have a similar mission to S&T. They said, ``We don't know what 
to measure, so we measure everything and try to make sense of 
it.'' They have like 20 different things that they actually 
keep track of. I think that is what we are going to do for 
another year or 2.
    Ms. Clarke. According to a recently released quadrennial 
homeland security review, the Department has five homeland 
security missions, one of which is safeguarding and securing 
cyberspace, yet the President's fiscal year 2011 request for 
cybersecurity research within S&T is $36 million, a $2 million 
decrease from last year.
    Why is a fundamental mission area like cybersecurity being 
funded at such a low level? Do you anticipate reprioritizing 
future S&T budgets to reflect the significance of the cyber 
mission?
    Dr. O'Toole. I think the cyber mission is extremely 
important. It actually stayed even, except for an earmark, 
compared to last year in S&T. It has grown 300 percent in 3 
years.
    So $36 million is not a lot of money compared to the size 
of the problem. It is a fairly significant chunk of money in 
S&T terms. We went to great lengths to protect it even in this 
constrained budget environment.
    Ms. Clarke. Thank you, Dr. O'Toole.
    I now yield--excuse me, I now recognize the Ranking Member 
of the subcommittee, the gentleman from California, Mr. 
Lungren.
    Mr. Lungren. Thank you very much.
    Dr. O'Toole, you mentioned in your opening statement about 
the white paper process, and then further speaking, when Mr. 
Owens asked you questions about small business. Can you tell me 
a little bit more about that white paper process? The reason 
why I say that is, I do have people who come to me who purport 
to represent smaller companies, who believe that they have 
certain unique approaches to things.
    I have particularly been--had a number of people contact me 
on this whole area of advanced imaging technology, sometimes in 
the area of passive millimeter wave technology and others.
    I am no expert. I listen to what they have to say. I take a 
look at it. I try and see whether it makes much--whether it 
makes sense. If it does, I want to make sure at least they are 
being heard.
    What would your suggestion be if we do have people who are 
relatively small business, entrepreneurial organizations, how 
they should proceed? For some of them, DHS is a rather large 
entity. What would the suggestion be?
    Dr. O'Toole. Well, I have a stack of these 1-page pamphlets 
called a quick look guide to doing business with S&T. I can 
give them all to you or we can spread them around the 
committee. I am serious.
    Mr. Lungren. No, that would be very helpful, because that 
is the kind of thing----
    Dr. O'Toole. I would appreciate it if you would let your 
constituents know how to get in touch with us. This is one of 
the ways we are going to connect. I mean, it is obvious that we 
think calling their Members of Congress is a good way to 
connect with the Government, and it should be.
    So we would like to make that easy for you. As you will see 
from this guide, which is pretty straightforward, depending 
upon what they have got and whether or not they really want to 
talk to S&T, there are a number of ways they can go.
    One common confusion is small companies think they actually 
have a product that is ready to be bought, so they have a 
better millimeter wave than the one we are using. That should 
go to TSA, because we develop technology. If it is already 
developed and ready for market, it is not our deal. That is the 
first declension.
    Second, it depends upon whether or not they think they have 
a fix for a particular problem. In the commercialization 
office, for example, we publish a lot of operational 
requirements documents that say, ``We have this need,'' and 
they describe it pretty thoroughly. If you think you have a 
fix, Mr. Businessman, then we want to talk to you in the 
commercialization office. If it really looks like a fix, we may 
even help you test and develop your product.
    So if you think you have a real near-term fix to a defined 
need, that is one route. If you have a wilder idea, okay--
forget about these millimeter wave technologies. Forget about 
X-ray. I have got a whole new energy system that I think can 
solve your checkpoint problem. That is probably a white paper 
exercise.
    Mr. Lungren. Oh, I got it.
    Dr. O'Toole. Okay? So there are different flavors of 
solutions that people want to present. We try to be very clear 
and very direct in which portal to walk through with the 
greater sense of success.
    We have also gone out and talked to people about what we 
want in the white paper. We want to know who your team is. We 
want to know your analytical argument for the proposal you are 
making. You know, some simple things like that make a big 
difference in our capacity to understand what is being 
proposed.
    Mr. Lungren. That is very helpful. I appreciate that. Let 
me ask this. Look, nobody ever has the budget they wish they 
would have. We have true budget problems now. I don't think we 
are even seriously addressing them.
    But nonetheless, when I look at the budget proposals and 
your statement, the 2011 budget request for chemical and 
biological within your directorate is slightly decreased from 
the 2011 level. The Congressional justification given in the 
budget is that the decrease reflects ``the funding of higher-
priority items within the Department.'' I know it is always 
trying to figure it out.
    But in light of this decreased budget request and the 
statement that there are other priorities, can you explain what 
your plan is for chemical and biological programs going 
forward? One of the reasons I ask that is, if you look at the 
WMD commission, it reiterated the importance of biodefense. I 
know you know that well.
    It is, it seems to me, a call to us in Congress to take it 
seriously. So given that, what are your plans going forward 
within your budget constraints?
    Dr. O'Toole. Well, I certainly share the concern about the 
biothreat. I think it is one of the gravest that the Nation 
faces, along with cyber and possibly an IND, improvised nuclear 
device.
    The cut in the chem-bio program, which is the oldest and 
the biggest program in S&T, really impinged upon some 
information analytics that we were doing for the Office of 
Health Affairs. It was in support of a program called NBIC, the 
National Biosurveillance Information Center, and the assistant 
secretary for health affairs has decided to pause in that 
program, which has been problematic for a long time--it is 
never really gotten a lot of momentum for reasons that have 
been described by GAO and others--and re-think it 
strategically.
    So by cutting the money we were putting into an analytic 
technology, we basically ended up doing very little, if any 
harm to any program involving bio or chem.
    In the future, I think the bio program needs to stay 
extremely robust, because to a large extent, the S&T program 
anchors a lot of essential activity in the Government, such as, 
for example, the analytics and the laboratory assays behind 
what we would do post-attack to determine the extent of the 
contamination, if it were anthrax for example, and how to clean 
it up, okay?
    That is really DHS doing that. We are doing it with 
partners in the interagency, but we are the anchor. S&T's chem-
bio division has actually become a very robust interagency 
nexus of work in the bio arena, and that, too, needs to 
proceed, but there is a long list of to-dos. You are quite 
right.
    Mr. Lungren. Thank you.
    Ms. Clarke. I now recognize the gentleman from New Mexico, 
Mr. Lujan, for 5 minutes.
    Mr. Lujan. Thank you very much, Madam Chairwoman.
    Just one last thought or question, if you will, Dr. 
O'Toole, building off a question that Mr. Owens asked, looking 
at the new imaging technology that we are currently exploring 
and seeing what we are going to do with AITs.
    I would request that your office would get a briefing from 
Los Alamos National Laboratories around the technology that is 
separate from AVIS, but which I believe, based on the 
information that I was presented with, would allow us to be 
able to meet many of our needs, address some of the privacy 
concerns, if not all of the privacy concerns, but truly allow 
us to see what needs to be seen, as well, and do it in a timely 
fashion, which would allow us to meet these needs.
    I understand that this is a spin-off of a different set of 
R&D that was taking place, but that there is currently not a 
customer in this area which will restrict our ability to move 
this technology forward, but based on your expertise and those 
around you, would ask for that consideration just going 
forward.
    Dr. O'Toole. Okay.
    Mr. Lujan. Thank you very much, Madam Chairwoman. I yield 
back my time.
    Ms. Clarke. Thank you. I would like to just let you know 
that I share the concerns of Ranking Member Lungren and Mr. 
Owens about the small-business concerns. I hope that some of 
the provisions within our authorization bill will also help 
address these concerns.
    It is a comment that we hear pretty frequently, you know, 
from people who just visit us, actually, on the Hill. They 
don't even have to necessarily be constituents. They will seek 
us out, because they know we are on the Homeland Security 
Committee.
    I guess sort of creating as many corridors based upon, as 
you said, I guess the level of development or the intent of the 
particular individual, enables us to hopefully not overlook 
something that may be of great value to the work that we do.
    We would like to also just--you know, we are here to 
partner with you. We know that you are, you know, 4 months in, 
but there has been a lot of concern that this directorate is 
not where we hope it to be, where we want it to be, given its 
critical interaction with all of the components.
    The on-going scrutiny that we get, particularly when it 
comes to coming up with solutions for the homeland security 
challenges that we face, inevitably people want to know what 
the S&T Directorate is doing. So we would like to be as helpful 
in strategic planning and perhaps even aligning some of what we 
are looking at in terms of the authorization bill with some of 
the aspirations of you and your team.
    Then, finally, you talked a little bit about the need to 
sort of look at how we establish some of these metrics. I hope 
that you will get back to us, once you have given it more 
thought, sort of looked at the lay of the land, with some of 
your observations and where you think you can be as a baseline 
in terms of metrics going forward.
    Dr. O'Toole. Yes.
    Ms. Clarke. I want to thank you, Dr. O'Toole, for bringing 
your talent and expertise to bear in this area. It is great to 
see that women are right there in the forefront making it 
happen.
    Mr. Lungren liked that one.
    Mr. Lungren. I like the fact that internal medicine 
specialists----
    Ms. Clarke. That, too. We look forward to your work going 
forward in the future.
    Let me just close by saying that the Members of the 
subcommittee may have additional questions for you, and we will 
ask you to respond expeditiously in writing to those questions.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 3:49 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

    Questions From Chairwoman Yvette D. Clarke of New York for Tara 
   O'Toole, Under Secretary for Science & Technology, Department of 
                           Homeland Security
    Question 1. What specific steps are you taking to make the 
integrated project teams more analytically rigorous?
    Answer. As the Science and Technology Directorate (S&T) does 
periodic (roughly semi-annual) reviews of the Integrated Project Teams 
(IPTs) and their programs, we are alert to instances where the 
requirements and the corresponding risk analyses might need to be more 
rigorously examined to ensure that sound judgments can be made on 
programs. As such instances are identified, a team of analysts, 
experienced in requirements analysis and risk evaluation, is assigned 
from the Homeland Security Studies and Analysis Institute (HSSAI), one 
of the Department of Homeland Security (DHS) Federally Funded Research 
and Development Centers (FFRDCs), to work with the scientific staff to 
reconsider and strengthen the analytic basis of the programs. 
Eventually, S&T anticipates that this procedure will provide a basis 
for comparative evaluation across IPTs as well.
    Question 2. You gave conflicting responses to the committee when 
asked if DHS was creating a management directive formalizing the 
Capstone IPT.
    Is DHS creating a management directive? If so, please provide any 
relevant details, including expected release date.
    Answer. During testimony, two different questions were asked. 
Congressman Owens asked if there was a management directive being 
formulated specifically for research. There is no Department-wide 
guidance currently being formulated for research.
    Chairwoman Clarke's question referred to a management directive for 
formalizing the IPT process, which directs our Transition portfolio. 
Science and Technology Directorate (S&T) has drafted a management 
directive and believes it will be a useful tool for increasing the 
transparency and rigor of the IPTs. However, while the formal structure 
of the IPTs is still under review, this management directive is still 
being reworked. The focus of this guidance is on the Capstone IPTs, and 
does not encompass basic research. It will describe the roles and 
responsibilities between the S&T and our customers for the Transition 
Portfolio. I expect it to be in place by the start of fiscal year 2011.
    Question 3. You described the current DHS risk assessment process 
as a collective one, bringing S&T, the operators, and the leadership of 
the Department together.
    Do all components perform their own assessment of risk and threat 
today?
    If so, how do you baseline this across the Department to determine 
which activities should be funded?
    What efforts are underway at the Department to baseline these 
activities?
    Answer. Many directorates, offices, and components across the 
Department of Homeland Security (DHS) conduct analyses or assessments 
related to risk, threat, vulnerability, and/or consequences as means to 
inform strategic and operational planning, and to support decision-
making specific to their mission. Since these assessments are 
necessarily tailored for the specific decision contexts and needs of 
their leadership, they appropriately use differing sources and 
granularity of data, different assessment methodologies and approaches, 
and report results in ways that are most useful to them. For example, 
the United States Coast Guard conducts the National Maritime Strategic 
Risk Assessment (NMSRA) and the Maritime Security Risk Analysis Model 
(MSRAM) to influence strategic and operational plans, and in execution 
of tactical operations.
    Consequently, since these intra-component assessments are designed 
to support specific needs and decisions, it is generally difficult to 
compare assessment results or findings across these assessments unless 
they are designed to do so in a consistent manner. To address this, the 
Office of Risk Management and Analysis (RMA), in conjunction with 
partners from across DHS and the homeland security enterprise--
including Federal, State, local, Tribal and territorial government 
organizations, the private sector and our international partners--is 
working to achieve a consistent and integrated approach to risk 
management that will increase the effectiveness of homeland security 
risk management. RMA has taken several critical first steps for 
building and institutionalizing integrated risk management. The office 
established a risk governance process with the DHS Risk Steering 
Committee (RSC), with membership from all components and offices in 
DHS. The RSC, which meets at three levels, including component 
leadership, ensures that there is collaboration, information-sharing, 
and consensus-building across the Department as we identify and 
integrate best practices for risk management and analysis. In September 
2008, the RSC published a DHS Risk Lexicon that establishes a common 
language for discussing risk-related concepts and techniques, and then 
in January 2009 released an Interim Integrated Risk Management 
Framework that sets the foundation for a common approach to homeland 
security risk management.
    RMA also conducts strategic all-hazards risk assessments that are 
designed to inform the prioritization of risks and resource allocation 
across the diverse mission sets within the Department. Specifically, 
the Risk Assessment Process for Informed Decision Making (RAPID), to be 
finalized in the spring of 2010, is the first quantitative all-hazards 
assessment of risk, and is being conducted to support strategic and 
budgetary decision making in DHS. While RAPID is not an aggregation or 
``roll up'' of other Department assessments, it uses and leverages data 
and results from those assessments as much as possible in its analysis 
to support decisions about planning, programming, and budgeting. RAPID 
will deliver three products in 2010: (1) A quantitative all-hazards 
assessment of risk, (2) a detailed mapping of most DHS programs to a 
range of all-hazards scenarios, and (3) an estimate of the risk 
reduction afforded by those programs.
    Question 4. What specific efforts will you undertake to create a 
risk-based approach for research funding?
    Answer. Risk has been identified as a fundamental consideration in 
decision-making across the Department of Homeland Security (DHS) and 
the larger National homeland security enterprise. Primary 
responsibility for consideration of societal outcome risks starts with 
those agencies and entities responsible for achieving homeland security 
outcome goals. Included among those responsible are the DHS components; 
other Federal agencies and departments with homeland security 
responsibilities; Government agencies at the State, local, territorial, 
and Tribal levels; and private sector entities such as owners and 
operators of critical infrastructure. These agencies and entities 
identify gaps in their capabilities to meet mission performance 
expectations. The Science and Technology Directorate's (S&T) Capstone 
Integrated Product Team (IPT) process brings these stakeholders 
together to identify and prioritize capability gaps for which 
technology solutions and research & development are necessary or 
potentially fruitful. Through the IPT process, homeland security 
stakeholders share their risk assessments with S&T.
    In addition, S&T is committed to working with other elements of DHS 
and the larger National homeland security enterprise to improve our 
collective understanding of homeland security risks and to develop and 
execute better methods, tools and processes for analyzing and 
communicating needed risk information.
  <bullet> S&T's research divisions are active partners with other 
        elements of DHS and the larger National homeland security 
        enterprise in carrying out assessments of various risks. For 
        example, S&T's Chemical and Biological Division has the lead 
        responsibility for biennial, systematic end-to-end risk 
        assessments on both traditional and advanced biological agents, 
        known as Bioterrorism Risk Assessments (BTRA).
  <bullet> S&T is actively working with the Office of Risk Management 
        and Analysis in the National Protection and Programs 
        Directorate to improve DHS's understanding of risk management 
        and analysis, the Department's risk lexicon, its risk education 
        and training capacity. S&T is also sponsoring active research 
        into analysis of complex-adaptive system risks, cross-community 
        collaboration in risk analysis and analyses of alternative 
        courses of action assessing multiple attributes including 
        effectiveness, cost, and sustainability.
    Question 5. What do you believe is the appropriate percentage for 
DHS S&T projects resulting in acquired technology?
    Answer. Research and development (R&D) is not a linear process and, 
therefore, linear metrics, such as a percentage of projects that will 
result in technology acquisition, are not measurable or appropriate. 
However, the Science and Technology Directorate (S&T) does measure 
progress toward achieving success on R&D projects. S&T has a goal of 
achieving 75 percent or higher of all project milestones each year. 
Program Managers measure performance by establishing milestones at the 
beginning of a project that reflect the key achievements needed to 
reach a desired end-state. Included in those milestones are decision 
points that indicate whether a project should continue or be 
terminated.
    S&T has a diverse investment portfolio. Transition programs 
represent approximately 50 percent of the R&D within S&T. These 
projects are lower risk efforts designed to deliver products to 
acquisition programs across the homeland security enterprise within 3 
to 5 years. The S&T Innovation investment represents less than 10 
percent of the R&D funding and those projects are designed to take on 
higher risk projects than an acquisition program can accept with the 
potential for higher pay-off than the acquisition program expects to 
receive. The basic research investment accounts for approximately 20 
percent of S&T budget and is funding efforts that are looking at the 
phenomenology and basic science that will lead to the development of 
the next generation of homeland security technology. The remaining 
funds are dedicated to the operation of the S&T laboratories, 
construction, SAFETY Act, and other functional programs that enable 
research, development, testing and evaluation, and further the homeland 
security position of the country.
    Question 6. During the hearing, you stated that ``we need several 
different kinds of metrics to measure different things.''
    Can you give us specific examples of the kinds of metrics that 
currently exist at S&T, and the metrics you intend to implement as 
Under Secretary?
    When will the results of the National Academy study on portfolio 
metrics be released?
    Answer. The Science and Technology Directorate (S&T) tracks two 
levels of performance metrics. One level is Government Performance 
Results Act (GPRA) Measures. The GPRA measures are high-level outcome 
measures that demonstrate progress toward achieving project success. 
The key GPRA measure is percent of program milestones met. Program 
Managers measure performance by establishing milestones at the 
beginning of a project that reflect the key achievements needed to 
reach a desired end-state. To make measures more meaningful S&T has 
tied Senior Executive Service (SES) performance plans and bonuses to 
the end-of-year results of the divisions' GPRA performance measures of 
achieving milestones.
    In addition to the GPRA measures, S&T had hundreds of detailed 
internal management measures that the divisions use to gauge program 
progress. These measures are based on a comprehensive programmatic and 
technical review to improve the performance of individual activities 
within projects. This process helps S&T ensure the viability and 
vitality of individual programs and projects.
    To help improve S&T program performance metrics, S&T contracted 
with the National Academy of Science (NAS) to develop a framework of 
metrics for S&T to better plan and evaluate its research activities. An 
important element of R&D planning is development of appropriate 
metrics, defined as a system of measures of the impact of research, to 
inform evaluation and improved decision-making. The NAS study began in 
April 2009 and selected the members of the committee in August, 2009. 
The committee, chaired by Dr. Carl Pister, held its first meeting on 
September 1 and 2, 2009. The study is scheduled to conclude in April, 
2011.
    Looking ahead S&T is engaging a third party to perform an initial, 
independent portfolio analysis. The result will be a process and method 
for repeatable portfolio analysis. The selection of the portfolio 
analysis performer is expected in early April 2010. Portfolio analysis 
will allow S&T to improve the efficacy and efficiency of its research 
investment.
    Question 7. With regard to assessing S&T performance, you stated 
that ``there would be different processes to ask a first responder if 
they found a protocol to be useful or accurate, versus asking a 
component whether they found S&T testing and evaluation to be helpful 
versus whether a deployed technology actually met the need as 
expected.'' You also stated that you are going to have to set up a 
variety of feedback systems to figure out how we are doing.
    Please describe specific steps you are taking to create these 
feedback systems. What current systems exist at S&T for these purposes 
already?
    Answer. The Science and Technology Directorate (S&T) has several 
current feedback systems with which to assess performance related to 
first responder technologies and knowledge products. They include:
  <bullet> S&T established the First Responder Capstone Integrated 
        Product Team to provide solutions that address capability gaps 
        identified by Federal, State, local, territorial, and Tribal 
        first responders.
  <bullet> S&T assumed responsibility, in fiscal year 2009, for the 
        management and funding of the former FEMA System Assessment and 
        Validation for Emergency Responders (SAVER) Program. The SAVER 
        Program conducts objective assessments and validations on 
        commercial equipment and systems and provides those results 
        along with other relevant equipment information to the 
        emergency response community in an operationally useful form. 
        SAVER provides information on equipment that falls within the 
        categories listed in DHS's Authorized Equipment List (AEL). The 
        SAVER Program mission is to provide information that enables 
        decision-makers and responders to better select, procure, use, 
        and maintain emergency responder equipment.
  <bullet> S&T established TechSolutions to rapidly address the 
        technology gaps identified by Federal, State, local, and Tribal 
        first responders. First responders are able to submit gaps 
        through the website, www.TechSolutions.dhs.gov. TechSolutions 
        validates capability gaps and first responder priorities by 
        working with a panel of first responder subject matter experts 
        to include the Inter-Agency Board (which comprises over 1,000 
        leaders from fire, police, emergency medical services (EMS) 
        throughout the United States). TechSolutions fields 
        prototypical solutions in 12 to 15 months; establishes a cost 
        that is commensurate with the proposal (normally $1 million or 
        less per project); and develops a solution that meets 80 
        percent or more of the identified requirement.
  <bullet> S&T's receives feedback on first responder needs through the 
        Integrated Product Team (IPT) process, which allows 
        stakeholders from the homeland security enterprise to identify 
        and prioritize technology gaps. Two examples of projects 
        undertaken for first responders are:
    <bullet> Geospatial Location Accountability and Navigation System 
            for Emergency Responders (GLANSER) Project.--Develops an 
            advanced first responder locating system that includes 
            integrated sensor components and software for visualizing 
            locations and tracks for incident commanders.
    <bullet> Physiological Health Assessment Sensor for Emergency 
            Responders (PHASER) Project.--Develops an integrated sensor 
            package that will monitor a responder's vital signs such as 
            cardiac rhythm, heart rate, blood pressure, body 
            temperature, and oxygen saturation, which could indicate 
            Pre-Ventricular Contractions (PVCs) or cardiac arrhythmias.
    S&T is also creating additional feedback systems for the first 
responder community to interact with S&T. Specific additions include:
  <bullet> The establishment of the First Responder Research 
        Development Test & Evaluation Working Group (FRWG), which 
        includes active members of the first responder community. 
        Members help identify and shape first responder specific 
        capability gaps and potential solutions that are undertaken by 
        S&T.
    <bullet> The FRWG is an integral part of the IPT process that 
            selects the S&T projects that go forward to mitigate First 
            Responder critical needs.
    <bullet> The FRWG is being expanded from 38 members to 52 members.
    <bullet> Each of the FRWG members reaches back to his/her 
            constituent groups and professional associations to 
            communicate not only what projects S&T is undertaking but 
            to validate the need and priority of those projects. S&T, 
            in conjunction with the FRWG, is reviewing the most 
            effective and efficient processes to conduct this outreach.
    <bullet> S&T is expanding the FRWG representation from 10 
            associations to 12. The 10 associations currently 
            represented are: International Association of Fire Chiefs 
            (IAFC), International Association of Firefighters (IAFF), 
            Interagency Board (IAB), International Association of 
            Chiefs of Police (IACP), National Sheriffs Association 
            (NSA), and Police Executive Research Forum (PERF). 
            International Association of Emergency Managers (IAEM). 
            National Emergency Management Association (NEMA), 
            International Association of Emergency Medical Technicians 
            (IAEMT), and the international Association of Emergency 
            Medical Services Chiefs (IAEMSC).
    <bullet> Several of the individual working group members also 
            belong to many prestigious National associations and will 
            conduct outreach and solicit input and feedback through 
            their respective associations, some of which are: National 
            Organization of Black Law Enforcement Executives (NOBLE), 
            National Native American Law Enforcement Association 
            (NNALEA), and the National Native American Fire Chiefs 
            Association (NNAFCA).
  <bullet> S&T is increasing first responders' ability to participate 
        in field demonstrations, tests and evaluation through a new 
        partnership with the Naval Post Graduate School. This close 
        interaction will give the first responder community the ability 
        to make informed observations on the project as it proceeds 
        toward completion.
  <bullet> S&T Directorate is developing the design and scope of a 
        first responder ``Community of Practice'' on the 
        FirstResponder.gov website. S&T is also exploring ways in which 
        to expand the membership and interaction on first responder.gov 
        to increase our visibility, outreach and first responder input 
        into S&T efforts.
    Question 8. S&T currently has the authority to use the research 
resources of other Federal agencies to determine the best existing 
solutions to homeland security related issues and to find sources to 
develop certain DHS security technologies.
    Which Department of Defense research labs, other resources within 
DOD, or other Federal agencies has DHS sought for expertise in sensing 
technologies and applications?
    Answer. See chart below.

----------------------------------------------------------------------------------------------------------------
                                                                                             Facility Name and
           Division                  Project Name         Fiscal Year     Federal Agency          Location
----------------------------------------------------------------------------------------------------------------
Infrastructure/Geophysical....  Advanced Surveillance  2009, 2010......  Department of     Massachusetts
                                 Systems.                                 Defense.          Institute of
                                                                                            Technology Lincoln
                                                                                            Laboratory,
                                                                                            Lexington, MA
Infrastructure/Geophysical....  Underwater             2009, 2010......  Department of     Naval Surface Warfare
                                 Surveillance--Dams                       Defense.          Center (NSWC),
                                 and Tunnels.                                               Crane, IA
Infrastructure/Geophysical....  Geospatial Location    2009, 2010......  Department of     National Business
                                 Accountability and                       Interior.         Center (NBC), U.S.
                                 Navigation System                       Department of      Army--Communications
                                 for Emergency.                           Defense.          -Electronics R&D
                                                                                            Center (CERDEC)
Infrastructure/Geophysical....  Physiological Health   2009, 2010......  Department of     NBC, U.S. Army-
                                 Assessment Sensor                        Interior.         Communications-
                                 for Emergency                           Department of      Electronics R&D
                                 Responders (PHASER)                      Defense.          Center (CERDEC)
                                 [formerly First
                                 Responder
                                 Physiological
                                 Monitoring].
Test, Evaluation & Standards..  Instrument Standards   2009, 2010......  Department of     National Institute of
                                 for Chemical                             Commerce.         Standards and
                                 Detection.                                                 Technology,
                                                                                            Gaithersburg, MD
Test, Evaluation & Standards..  Standards Development  2009, 2010......  Department of     National Institute of
                                 for Detection and                        Commerce.         Standards and
                                 Sampling of                                                Technology,
                                 Biothreats by First                                        Gaithersburg, MD
                                 Responders.
Test, Evaluation & Standards..  Radiation and Nuclear  2009, 2010......  Department of     National Institute of
                                 Detector Standards                       Commerce.         Standards and
                                 and Validation.                                            Technology,
                                                                                            Gaithersburg, MD
Test, Evaluation & Standards..  Development of a       2009, 2010......  Department of     National Institute of
                                 Standard and                             Commerce.         Standards and
                                 Measurement                                                Technology,
                                 Infrastructure for                                         Gaithersburg, MD
                                 Calibration,
                                 Standardization and
                                 Optimization of
                                 Trace Explosive
                                 Detection.
Test, Evaluation & Standards..  Metrology and SRMs     2009, 2010......  Department of     National Institute of
                                 for Canine Olfactory                     Commerce.         Standards and
                                 Detection of                                               Technology,
                                 Explosives.                                                Gaithersburg, MD
Test, Evaluation & Standards..  NIST Standard          2009, 2010......  Department of     National Institute of
                                 Reference Materials                      Commerce.         Standards and
                                 (SRMs) to Support                                          Technology,
                                 Trace Explosive                                            Gaithersburg, MD
                                 Detection.
Test, Evaluation & Standards..  Information            2009, 2010......  Department of     National Institute of
                                 Management, On-                          Commerce.         Standards and
                                 Demand Evaluation,                                         Technology,
                                 and Dissemination                                          Gaithersburg, MD
                                 System for
                                 Properties of Novel
                                 Explosives.
Test, Evaluation & Standards..  National Standards     2009, 2010......  Department of     National Institute of
                                 for X-ray and Gamma-                     Commerce.         Standards and
                                 ray Security                                               Technology,
                                 Screening Systems                                          Gaithersburg, MD
                                 and Their Validation.
Test, Evaluation & Standards..  Standards for Secure   2009, 2010......  Department of     National Institute of
                                 and Reliable RFID                        Commerce.         Standards and
                                 Communication in                                           Technology,
                                 Identification                                             Gaithersburg, MD and
                                 Applications.                                              Boulder, CO
Command, Control and            Discrete-Element       2009, 2010, 2011  Department of     Sandia National
 Interoperability.               Computing, Privacy                       Energy.           Laboratories,
                                 and Forensics.                                             Pacific Northwest
                                                                                            National Laboratory
                                                                                            (PNNL)
Command, Control and            Experimental Research  2009, 2010, 2011  Department of     Sandia National
 Interoperability.               Testbed Project.                         Energy.           Laboratories;
                                                                                            Department of
                                                                                            Defense--Space and
                                                                                            Naval Warfare
                                                                                            Systems Command
Command, Control and            Common Operating       2009, 2010, 2011  Department of     Space and Naval
 Interoperability.               Picture (COP) Data                       Defense.          Warfare Systems
                                 Fusion Technologies                                        Command
                                 Project.
Command, Control and            Law Enforcement and    2009, 2010, 2011  Department of     Space and Naval
 Interoperability.               Intelligence Sensor                      Defense.          Warfare Systems
                                 Fusion Project.                                            Command
Command, Control and            RealEyes Project.....  2009, 2010, 2011  National          Jet Propulsion
 Interoperability.                                                        Aeronautics and   Laboratory,
                                                                          Space             Pasadena, CA
                                                                          Administration.
Transition....................  Canary...............  2009, 2010......  Department of     Edgewood Chemical
                                                                          Defense.          Biological Center,
                                                                                            U.S. Air Force,
                                                                                            Pentagon Force
                                                                                            Protection Agency
Transition....................  SNIFFER..............  2009............  Department of     Oak Ridge National
                                                                          Energy.           Laboratory
Transition....................  SPAWAR Situational     2009, 2010......  Department of     Space and Naval
                                 Awareness.                               Defense.          Warfare Systems
                                                                                            Command
Chemical & Biological.........  ARFCAM and LACIS.....  2003-2010.......  Department of     Naval Research
                                                                          Defense.          Laboratory,
                                                                                            Washington, DC
Chemical & Biological.........  Detect to Protect....  2005-2009.......  Department of     U.S. Naval Research
                                                                          Defense.          Laboratory,
                                                                                            Washington, DC
Chemical & Biological.........  Detect to Protect....  2005-2010.......  Department of     Edgewood Chemical
                                                                          Defense.          Biological Center,
                                                                                            Aberdeen Proving
                                                                                            Ground, MD
Chemical & Biological.........  Detect to Protect....  2009-2011.......  Department of     Massachusetts
                                                                          Defense.          Institute of
                                                                                            Technology, Lincoln
                                                                                            Laboratory, Hanscom
                                                                                            Air Force Base, MA
Chemical & Biological.........  Low Vapor Pressure     2010-2011.......  Department of     Edgewood Chemical
                                 Chemicals Detection                      Defense.          Biological Center/
                                 Systems.                                                   Aberdeen Proving
                                                                                            Ground, MD
Border and Maritime...........  Sensor Data Fusion     2009-2010.......  Department of     Space and Naval
                                 and Decision Aids.                       Defense.          Warfare Systems
                                                                                            Command Pacific (SSC
                                                                                            Pacific), San Diego,
                                                                                            CA
Border and Maritime...........  Advanced Container     2004-2010.......  Department of     Space and Naval
                                 Security Device.                         Defense.          Warfare Systems
                                                                                            Command Pacific (SSC
                                                                                            Pacific), San Diego,
                                                                                            CA
Border and Maritime...........  Container Security     2004-2010.......  Department of     Space and Naval
                                 Device.                                  Defense.          Warfare Systems
                                                                                            Command Pacific (SSC
                                                                                            Pacific), San Diego,
                                                                                            CA
Border and Maritime...........  Sensors &              2009-2010.......  Department of     Naval Surface Warfare
                                 Surveillance.                            Defense.          Center (NSWC),
                                                                                            Crane, IA
Border and Maritime...........  Sensors &              2009-2010.......  Department of     Naval Undersea
                                 Surveillance.                            Defense.          Warfare Center
                                                                                            (NUWC), Newport, RI
Border and Maritime...........  Sensors &              2009-2010.......  Department of     Naval Research
                                 Surveillance.                            Defense.          Laboratory (NRL),
                                                                                            Washington, DC
Border and Maritime...........  BorderTech...........  2006-2010.......  Department of     Naval Research
                                                                          Defense.          Laboratory (NRL),
                                                                                            Washington, DC
Border and Maritime...........  Tunnel Detection.....  2008-2010.......  Department of     U.S. Army Corp of
                                                                          Defense.          Engineers
                                                                                            (Engineering,
                                                                                            Research and
                                                                                            Development Center),
                                                                                            Vicksburg, MS
Border and Maritime...........  BorderTech...........  2005-2010.......  Department of     U.S. Army Corp of
                                                                          Defense.          Engineers
                                                                                            (Engineering,
                                                                                            Research and
                                                                                            Development Center),
                                                                                            Vicksburg, MS
Border and Maritime...........  BorderTech...........  2005-2010.......  Department of     U.S. Army
                                                                          Defense.          Communications--Elec
                                                                                            tronics Research and
                                                                                            Development Center
                                                                                            (CERDEC), Ft.
                                                                                            Monmouth, NJ
Border and Maritime...........  BorderTech...........  2005-2010.......  Department of     U.S. Army Night
                                                                          Defense.          Vision & Electronic
                                                                                            Sensors Directorate,
                                                                                            Ft Belvoir, VA
Border and Maritime...........  Offshore Buoy SBIR...  2006-2010.......  Department of     Naval Facilities
                                                                          Defense.          Engineering Support
                                                                                            Center (NFESC), Port
                                                                                            Hueneme, CA
Border and Maritime...........  Sensors &              2005-2009.......  Department of     U.S. Coast Guard
                                 Surveillance.                            Homeland          Research and
                                                                          Security.         Development Center
                                                                                            (USCG RDC), New
                                                                                            London, CT
Border and Maritime...........  Sensors &              2005-2009.......  Department of     U.S. Coast Guard
                                 Surveillance.                            Homeland          Command and Control
                                                                          Security.         Engineering Center
                                                                                            (C2CEN), Portsmouth,
                                                                                            VA
Border and Maritime...........  Sensors &              2010............  Department of     Volpe Center (is the
                                 Surveillance.                            Transportation.   short title),
                                                                                            Cambridge, MA
Border and Maritime...........  Advanced Container     2004-2010.......  Department of     Sandia National
                                 Security Device.                         Energy.           Laboratories,
                                                                                            Livermore, CA &
                                                                                            Albuquerque, NM
Border and Maritime...........  Container Security     2004-2010.......  Department of     Sandia National
                                 Device.                                  Energy.           Laboratories,
                                                                                            Livermore, CA &
                                                                                            Albuquerque, NM
Border and Maritime...........  BorderTech...........  2006-2010.......  Department of     Sandia National
                                                                          Energy.           Laboratories,
                                                                                            Livermore, CA &
                                                                                            Albuquerque, NM
Border and Maritime...........  Advanced Container     2004-2010.......  Department of     Pacific Northwest
                                 Security Device.                         Energy.           National Laboratory,
                                                                                            Richland, WA
Border and Maritime...........  Container Security     2004-2010.......  Department of     Pacific Northwest
                                 Device.                                  Energy.           National Laboratory,
                                                                                            Richland, WA
Border and Maritime...........  Advanced Container     2004-2010.......  Department of     Lawrence Livermore
                                 Security Device.                         Energy.           National Laboratory,
                                                                                            Livermore, CA
Border and Maritime...........  Container Security     2004-2010.......  Department of     Lawrence Livermore
                                 Device.                                  Energy.           National Laboratory,
                                                                                            Livermore, CA
Border and Maritime...........  Passive Coherent       2005-2007.......  Department of     Air Force Research
                                 Localization.                            Defense.          Laboratory, Rome, NY
Border and Maritime...........  Sensor Data Fusion     2009-2010.......  Department of     Air Force Research
                                 and Decision Aids.                       Defense.          Laboratory, Dayton,
                                                                                            OH
Border and Maritime...........  BorderTech...........  2007-2010.......  Federally funded  Massachusetts
                                                                          Research and      Institute of
                                                                          Development       Technology--Lincoln
                                                                          Center.           Laboratory (MIT-LL),
                                                                                            Lexington, MA
Border and Maritime...........  BorderTech...........  2007-2010.......  Department of     Institute for Defense
                                                                          Defense.          Analyses,
                                                                                            Alexandria, VA
Human Factors.................  Multi-modal            2008-2010.......  Department of     National Institute of
                                 Biometrics Project                       Commerce.         Standards and
                                 (formerly Biometrics                                       Technology,
                                 Project).                                                  Gaithersburg, MD
Human Factors.................  Mobile Biometrics      2009, 2010......  Department of     Massachusetts
                                 System.                                  Defense.          Institute of
                                                                                            Technology--Lincoln
                                                                                            Laboratory (MIT-LL),
                                                                                            Lexington, MA
Innovation....................  FAST.................  2009, 2010......  Department of     Intelligence Advanced
                                                                          Defense.          Research Projects
                                                                                            Activity, Research,
                                                                                            Development and
                                                                                            Engineering Command--
                                                                                            Night Vision and
                                                                                            Electronic Sensors
                                                                                            Directorate,
                                                                                            Washington, DC
                                                                                            metro; Fort Belvoir,
                                                                                            VA
Innovation....................  Cell-All.............  2009, 2010......  National          Ames Research Center,
                                                                          Aeronautics and   Moffett Field,
                                                                          Space             Mountain View, CA
                                                                          Administration.
Innovation....................  Multi-Modal Tunnel     2009, 2010......  Department of     NORTHCOM, Peterson
                                 Detect.                                  Defense.          Air Force Base, CO
Innovation....................  MagViZ...............  2009, 2010......  Department of     Los Alamos National
                                                                          Energy.           Laboratory; Los
                                                                                            Alamos, NM
Explosives....................  Canine Training Aids.  2010............  Department of     NAVEOD Technical
                                                                          Defense.          Division, Indian
                                                                                            Head, MD
Explosives....................  Metal-Insulator-Metal  2008-2010.......  Department of     Naval Research
                                 Ensemble (MIME)                          Defense.          Laboratory (NRL),
                                 Sensor & Test Bed.                                         Washington, DC
Explosives....................  Multi-Assay Enabled    2010............  Department of     Defense Advanced
                                 Wide Area Sampling                       Defense.          Research Projects
                                 and Testing.                                               Agency, Arlington,
                                                                                            VA RedXDefense,
                                                                                            Rockville, MD
Explosives....................  Explosive Detection    2007-2010.......  Department of     Air Force Research
                                 System (EDS) Data                        Defense.          Laboratory, Tyndall
                                 Collection.                                                Air Force Base,
                                                                                            Panama City, FL
----------------------------------------------------------------------------------------------------------------

    Question 9. Since October 2008, S&T commercialization and industry 
outreach and collaboration efforts have been handled largely through 
the DHS SECURE Program and other similar efforts.
    Under your leadership, how will S&T expand its work with private 
industry to develop new capabilities that may be of benefit to DHS and 
first responders?
    Answer. The SECURE<SUP>TM</SUP> program enables collaboration of 
public and private entities to develop products, technologies, and 
services rapidly for DHS stakeholders. In fiscal year 2009, the 
SECURE<SUP>TM</SUP> program generated eight Operational Requirements 
Documents (ORDs). S&T plans to expand SECURE<SUP>TM</SUP>. In fiscal 
year 2010, the program expects a minimum of ten new SECURE<SUP>TM</SUP> 
ORDs and 20 ORDs in fiscal year 2011. In fiscal year 2012, the program 
plans to generate and vet an additional 25 ORDs.
    Below is a list of ways that the Science and Technology Directorate 
(S&T) will work with private industry to develop new capabilities that 
may benefit the Department of Homeland Security (DHS) and first 
responders:
  <bullet> S&T outreach efforts center on notifying the private sector 
        about opportunities that exist for partnership and business 
        development to address the needs of DHS, the first responder 
        community, and critical infrastructure/key resources (CIKR) 
        owners and operators. These outreach efforts are conducted 
        through invited talks to trade conventions, reaching small, 
        medium, and large businesses. Efforts also extend to meetings 
        with minority, disadvantaged, and HUBZone groups on a regular 
        basis.
  <bullet> DHS routinely publishes and makes available the unsatisfied 
        needs and wants of S&T's stakeholders through the publication 
        of the ``High Priority Technology Needs'' (dated May 2009) 
        book, which assists in the communication of needs throughout 
        the Department and externally to the private sector when 
        appropriate.
  <bullet> S&T issues Requests for Information (RFIs) and Sources 
        Sought notices to gather information on the current state of 
        technology industry-wide as well as to collaborate with 
        industry on development proposals. These mechanisms are 
        normally followed by a request for proposal if there is 
        indication a Government need can be met.
  <bullet> S&T uses the Long Range Broad Agency Announcement (LRBAA) to 
        give industry an acquisition vehicle to communicate with S&T on 
        its technology proposals to meet current requirements, and this 
        also allows S&T to screen industry for any new break-through 
        technologies that may enhance or exceed current development 
        efforts.
  <bullet> The Small Business Innovation Research (SBIR) Program 
        reaches out to small, innovative businesses to fund critical 
        research/research and development stage and it encourages the 
        commercialization of technologies, products, and/or services. 
        Similar to the research and development (R&D) programs of S&T, 
        SBIR topics generally address the needs of the seven DHS 
        operational units as well as the first responder community.
  <bullet> S&T's leverages its TechSolutions Project to rapidly address 
        the technology gaps identified by Federal, State, local, and 
        Tribal first responders. The TechSolutions Project fields 
        prototypical solutions in 12 to 15 months; establishes a cost 
        that is commensurate with the proposal (normally $1 million or 
        less per project), and develops a solution that meets 80 
        percent or more of the identified requirement.
    Question 10. How has S&T incorporated the findings and 
recommendations of the 2009 National Academy of Public Administration 
report into current operations?
    Answer. The Science and Technology Directorate (S&T) has taken 
several steps to address the National Academy of Public 
Administration's (NAPA) recommendations in the 2009 report on S&T. 
Primarily S&T is actively engaged in a strategic planning effort that 
includes the development of an investment review process including a 
redefinition of the way performance is defined and measured; a review 
of the Directorate's functions, organizational construct, and business 
practices; and a renewed focus on coordinating the homeland security 
research and development (R&D) activities across the Federal 
Government.
    S&T is developing its strategic plan by first reviewing the entire 
planning process from vision and mission to goals and objectives. The 
strategic plan will help S&T determine if the organization is properly 
shaped to meet its mission efficiently and effectively. This plan will 
incorporate recommendations from the NAPA study and results from the 
Quadrennial Homeland Security Review (QHSR), released in February, 
2010. It will help determine if the right business practices are in 
place to facilitate the work. The QHSR lays out a DHS-wide strategic 
framework to guide DHS activities. The QHSR framework provides a 
foundation for the development of long-term strategic goals for S&T. 
S&T plans to have a final version of its strategic plan implemented 
prior to fiscal year 2011.
    S&T has already taken several steps toward completing its strategic 
plan. S&T has formed a steering committee familiar with S&T operations 
to provide direction and logistics for the strategic plan. S&T has set 
an aggressive goal to complete several internal planning sessions or 
forums and an employee survey that ensures active participation S&T-
wide. An independent, third-party subject matter experts (SMEs) team 
has been selected to work with the steering committee and provide 
analysis of gathered information. The SME's have completed reviews of 
other research and development (R&D) agencies' plans. Stakeholders, 
both internal and external to DHS, have been identified and will be 
interviewed. Stakeholders will consist of DHS internal operational 
partners; Congressional staff; other Federal agencies; a cross-cut of 
the homeland security enterprise, as time allows. These activities are 
the foundation to completing a strategic plan by fiscal year 2011.
    Repeatable portfolio analysis is critical to S&T's strategic 
planning process. Portfolio analysis will allow S&T to improve the 
efficacy and efficiency of its research investment. S&T is engaging a 
third party to perform an initial, independent portfolio analysis. The 
result will be a process and method for repeatable portfolio analysis. 
The selection of the portfolio analysis performer is expected in early 
April 2010.
    To help improve S&T program performance metrics, S&T contracted 
with the National Academy of Science (NAS) to develop a framework of 
metrics for S&T to better plan and evaluate its research activities. An 
important element of R&D planning is development of appropriate 
metrics, defined as a system of measures of the impact of research, to 
inform evaluation and improved decision-making. The NAS study began in 
April 2009 and selected the members of the committee in August, 2009. 
The committee, chaired by Dr. Carl Pister, held its first meeting on 
September 1 and 2, 2009. The study is scheduled to conclude in April 
2011.
    As Section 302 of the Homeland Security Act of 2002 describes, the 
Under Secretary for Science and Technology has the responsibility to 
develop strategic plans for homeland security R&D. In response to this 
mandate, S&T published ``Coordination of Homeland Security Science and 
Technology'' in December 2007 (revised January 2008), which reported 
the roles and responsibilities of Federal agencies, as well as 
initiatives underway to counter threats to homeland security. S&T is 
currently revising this 2008 effort in conjunction with the QHSR.
    As DHS developed the QHSR, S&T working groups began to update the 
National level strategic plan. Divisions within S&T have compiled input 
with their interagency partners. The working groups are also performing 
the following tasks:
  <bullet> Define the process for drafting a National-level Homeland 
        Security Science and Technology Plan;
  <bullet> Articulate a vision of the outcome of that process in terms 
        of the criteria that the final plan must meet; and
  <bullet> Define key terms and phrases for the plan development 
        process.
    S&T is engaging external partners to inform this strategic research 
plan. S&T is in consultation with OSTP, including the Executive 
Director of the National Science & Technology Council (NSTC), to 
discuss the plan details and coordination efforts for the plan across 
Federal partners. SMEs from DHS's Federally Funded Research and 
Development Center (FFRDC) have provided plan support by both 
developing a framework and through on-going analysis of input from 
inter-agency working groups and councils.
    In addition to the above steps to implement NAPA recommendations, 
S&T has already realigned the programs addressing first responder 
requirements gathering and technology development under the Interagency 
Division and defined roles and responsibilities to ensure a coordinated 
effort. S&T has established a new goal of achieving 75 percent or 
higher of all project milestones each year. These project milestones 
are determined by program managers at the beginning of a project and 
reflect the key achievements needed to reach a desired end-state. S&T 
has further opened up the lines of communication between staff and 
senior management through the use of a suggestion mailbox read by the 
S&T Chief of Staff.

                                 <all>

</pre></body></html>
